APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Eleventh Circuit
(February 7, 2020) . . . . . . . . . . . . App. 1
Appendix B Order in the United States District
Court for the Northern District of
Alabama Northeastern Division
(July 9, 2018) . . . . . . . . . . . . . . . App. 22
Appendix C Opinion in the United States District
Court for the Northern District of
Alabama Northeastern Division
(August 1, 2017) . . . . . . . . . . . . . App. 33
Appendix D Order in the United States District
Court for the Northern District of
Alabama Northeastern Division
(August 1, 2017) . . . . . . . . . . . . . App. 59
Appendix E Opinion in the United States District
Court for the Northern District of
Alabama Northeastern Division
(September 30, 2015) . . . . . . . . . App. 60
Appendix F Appellant’s Brief on Appeal to the
11th Circuit . . . . . . . . . . . . . . . . . App. 83
Appendix G Appellant’s Reply Brief on Appeal to
the 11th Circuit. . . . . . . . . . . . . App. 114

App. 1

APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-12999
D.C. Docket No. 5:14-cv-00684-MHH
[Filed February 7, 2020]
____________________________________
JUDSON A. LOVINGOOD,
)
)
Plaintiff-Appellant, )
)
versus
)
)
DISCOVERY COMMUNICATIONS, )
INC., SCIENCE CHANNEL, THE,
)
DISCOVERY CHANNEL, THE,
)
BBC FILMS, KATE GARTSIDE,
)
)
Defendants-Appellees,
)
)
OPEN UNIVERSITY, THE,
)
)
Defendant,
)
)
DISCOVERY COMMUNICATIONS, )
LLC,
)
)
Interested Party-Appellee. )
___________________________________ )

App. 2
[DO NOT PUBLISH]
Non-Argument Calendar
Appeal from the United States District Court for the
Northern District of Alabama
(February 7, 2020)
Before WILSON, BRANCH, and JULIE CARNES,
Circuit Judges.
PER CURIAM:
More than thirty years after the seven Challenger
astronauts “‘slipped the surly bonds of Earth’ to ‘touch
the face of God,’”1 a former NASA manager seeks $14
million in damages after he was depicted in a made-forTV movie about the Challenger investigation. Because
we decline to carve out an exception to well-established
defamation law for this claim, and because the plaintiff
has failed to overcome the broadcaster’s First
Amendment rights in the film, we affirm the district
court’s grant of summary judgment against him.
I
The space shuttle Challenger broke apart 73
seconds after it launched on January 28, 1986, killing
all seven astronauts on board. A presidential
commission was convened to investigate the cause of
the disaster and recommend corrective action. The

1

President Ronald W. Reagan, Address to the Nation (Jan. 28,
1986) (quoting John Gillespie Magee, Jr., “High Flight,” in
Respectfully Quoted: A Dictionary of Quotations Requested from the
Congressional Research Service 117 (1989)).

App. 3
commission’s investigation, which included televised
public hearings, would reveal that the disaster was
caused by a rubber O-ring that, because of low ambient
air temperatures at the time of launch, failed to seal a
joint in the shuttle’s solid-fuel rocket booster. More
fundamentally, the investigation highlighted problems
with risk assessment and decision-making at NASA,
particularly after it emerged that outside contractors
had recommended delaying the shuttle launch due to
concerns about the effect of the cold weather on the
rocket booster seals.
In 2012, the British Broadcasting Corporation
(“BBC”), Discovery Communications, Inc. (“Discovery”),
and The Open University co-produced a made-for-TV
film about the Challenger investigation titled The
Challenger Disaster. The film centers on Richard
Feynman, Ph.D., the well-known Nobel laureate
physicist who served on the presidential commission.
Although the film uses some historical video footage,
most of the film involves actors portraying the people
and events of the Challenger investigation, and the film
is shot in a dramatic, rather than documentary, style.
The film was based in part on Feynman’s
posthumously published memoir, “What Do You Care
What Other People Think?”: Further Adventures of a
Curious Character, and in part on the book Truth, Lies,
and O-Rings by space shuttle engineer Allan
McDonald. The film was executive produced,
researched, and written in the United Kingdom by the
BBC, and it was filmed in South Africa in late 2012.
The BBC broadcast the film in the United Kingdom in
March 2013. Discovery had a master agreement with

App. 4
the BBC that granted Discovery the option to coproduce and rebroadcast BBC programming in the
United States, though the BBC would retain final
artistic and editorial control over the programming.
Discovery had contributed 40% of the production cost
of The Challenger Disaster and received the license to
rebroadcast the film in the United States. It
rebroadcast the film, very slightly modified, on the
Discovery Channel and the Science Channel on
November 16, 2013.
The film opens with historical video and audio from
the moments before Challenger’s launch, with the
following title cards interspersed:
“This is a true story.”
“It is based on the book ‘What Do You Care What
Other People Think?’ by Richard and Gweneth
Feynman and Ralph Leighton and on interviews with
key individuals.”
“Some scenes have been created for dramatic
purposes.”
The plaintiff–appellant, Judson Lovingood, Ph.D.,
was the deputy manager of the space shuttle projects
office at NASA’s Marshall Space Flight Center in 1986.
In the film, he appears in one short scene near the end.
In that pivotal scene, Lovingood and two other NASA
managers testify in the commission’s televised hearing
after being sworn. One of the managers is reciting dry,
technical information when Feynman, visibly dismayed

App. 5
that they are getting nowhere, interjects.2 “I have a
question. Can you remind me what NASA calculates
the probability of shuttle failure to be? Failure meaning
the loss of the vehicle and the deaths of the entire
crew.”
Another commission member directs the question.
“Dr. Lovingood?”
“Certainly. Uh, that would be—one in ten to the
power of five,” Lovingood calmly replies.
“Really,” Feynman says, incredulous. “Would you
explain that?”
“Yes, that the probability of mission success is one
hundred percent. Minus epsilon.”
“Epsilon, that’s a pretty fancy word,” muses
Feynman. “Well, let’s put all that you’ve said there into
English. So that’s, um, that’s one failure in every
100,000 flights. So you claim that the shuttle would fly
every day for 300 years before there would be a single
failure. That’s crazy, I mean, how would you ever even
test that?”
“NASA arrived at that figure because it was a
manned flight,” Lovingood explains.
“Because there were people on board. But that’s not
a scientific calculation; that’s—that’s—a wish.”
Feynman is picking up steam now. “And interesting
that the figure is very different from that of NASA’s

2

This and other transcriptions of the U.S.-aired copy of the film in
the record are our own.

App. 6
own engineers. Based on their direct experience and
observation of many known component problems, some
of NASA’s engineers calculate the probability of success
as only 99.4 percent. In other words, that’s roughly one
flight in every 200 will fail.” The room dissolves into
murmurs as Feynman unfolds a handwritten note that
reads “We Think Ivory Soap (99.4%).”
Following this scene, other characters congratulate
Feynman on revealing NASA’s errors in judgment and
risk assessment. Feynman then performs for the
television cameras his famous demonstration of ice
water rendering an O-ring inelastic, which serves as
the film’s climax as Feynman finally reveals to the
nation the truth about what caused the Challenger
disaster.
Undisputedly, Lovingood’s testimony scene is a
fictionalization. Although Lovingood twice testified
before the commission, his testimony covered only
technical background on the shuttle’s propulsion
systems and their preflight testing and discussed the
conference calls that took place the day before launch.
That testimony was not depicted in the film. The
discrepancies in failure probabilities at NASA were not
the subject of commission testimony, instead appearing
in Feynman’s Appendix F (“Personal Observations on
the Reliability of the Shuttle”) to the commission’s final
report.
Feynman learned the 1-in-200 and 1-in-105 figures
in two different meetings that he conducted at the
Marshall Space Flight Center in Huntsville. According
to Feynman’s memoir, NASA range safety officer Louis
Ullian told him that NASA had given him a probability

App. 7
of space shuttle failure of 1 in 105, prompting
Feynman’s response of “crazy!” and his observation
that the shuttle could undertake a flight every day for
300 years between accidents. On another occasion,
Feynman recounted meeting with three NASA
engineers and their boss, Lovingood.3 Feynman asked
them each to write down “the probability that a flight
would be uncompleted due to a failure in this [main]
engine.” One engineer wrote “99-44/100% pure,” one
wrote something amounting to 1 in 200, and one wrote
“1 in 300.” Lovingood wrote, “Cannot quantify.” When
Feynman accused him of weaseling, Lovingood clarified
that he meant “100 percent . . . minus epsilon,” with
epsilon being 10-5. Lovingood later sent Feynman the
NASA report about failure probabilities for launches of
plutonium-powered space probes, which had calculated
the 1-in-100,000 odds that Feynman found fantastical.
The film dramatizes that second meeting early on,
but with Lovingood absent from the scene. Feynman
sits down to a meal in the Marshall cafeteria and asks
two NASA engineers sitting nearby the probability of
“an accident on any single launch.” The engineers are
reluctant to reply out loud and Feynman suggests that
they write their response on a piece of paper, but we do
not see either engineer doing so. We see Feynman
contemplating the “We Think Ivory Soap” note in two
mid-film scenes; we don’t know where it came from,
and Feynman doesn’t know what it means. Later, when

3

In his 2016 deposition, Lovingood noted that Feynman’s
recollection of this meeting was so good that he thought he must
have had a tape recorder, although he disputed that he ever said
“100 percent.”

App. 8
Mrs. Feynman sees the note and absentmindedly
misrecites the old Ivory Soap slogan as “99.4% pure,”
Feynman makes the connection. As the testimony
scene finally confirms, the engineers in the Marshall
cafeteria were the source of Feynman’s climactic 99.4%
figure.
II
Lovingood filed this suit against Discovery
Communications, Inc., the Science Channel, the
Discovery Channel, BBC Films, the Open University,
screenwriter Kate Gartside, and several unnamed
defendants in Alabama state court in 2014, alleging
defamation and invasion of privacy–false light
stemming from his negative portrayal in the film. He
sought $7 million in compensatory damages and $7
million in punitive damages, invoking the memory of
the seven deceased Challenger astronauts. Compl. ¶ 11.
Discovery removed to federal court; several defendants
were dismissed; and Discovery eventually moved for
summary judgment.
In 2017, the district court granted summary
judgment against both of Lovingood’s claims and
dismissed his complaint with prejudice. Lovingood v.
Discovery Comm’ns, Inc., 275 F. Supp. 3d 1301
(N.D. Ala. 2017). On the defamation claim, the court
found that Lovingood was a public official, id. at 1309,
and that he failed to show that Discovery acted with
actual malice, id. at 1314. On the invasion of privacy
claim, the court found that Lovingood similarly failed
to show that Discovery acted recklessly. Id. Lovingood
now appeals the grant of summary judgment against
his defamation claim.

App. 9
III
We review the district court’s grant of summary
judgment de novo “and will affirm if the evidence,
‘viewed in the light most favorable to the nonmoving
party, presents no genuine issue of fact and compels
judgment as a matter of law.’” Douglas Asphalt Co. v.
QORE, Inc., 657 F.3d 1146, 1153 (11th Cir. 2011)
(quoting Swisher Int’l, Inc. v. Schafer, 550 F.3d 1046,
1050 (11th Cir. 2008)).
Alabama law generally allows a plaintiff to recover
damages for defamation against a publisher who
negligently publishes a false and defamatory statement
about the plaintiff. See Nelson v. Lapeyrouse Grain
Corp., 534 So. 2d 1085, 1091 (Ala. 1988).4 However, the
Supreme Court has explained that the First
Amendment’s protections of the right to criticize the
government operate to limit state defamation law when
the plaintiff is a “public official.” A plaintiff who is a
“public official” must overcome the First Amendment
by proving that a false statement relating to his official
conduct “was made with ‘actual malice’—that is, with
knowledge that it was false or with reckless disregard
of whether it was false or not.” N.Y. Times Co. v.
Sullivan, 376 U.S. 254, 279–80 (1964). 5

4

According to the Restatement (Second) of Torts, upon which the
Alabama Supreme Court relied in Nelson, a defendant who merely
republishes the work of another can be every bit as liable as the
original publisher. Restatement (Second) of Torts § 578 (1977); see
also Age-Herald Publ’g Co. v. Waterman, 66 So. 16, 21 (Ala. 1913).
5

“Actual malice under the New York Times standard should not be
confused with the concept of malice as an evil intent or a motive

App. 10
Initially, Lovingood briefly disputes the finding of
the district court that he is a “public official” for
purposes of this First Amendment analysis. He asserts
in passing that he was merely a “public employee,”
without addressing the detailed analysis of the district
court on that issue.6 We affirm the conclusion of the
district court that Lovingood is a public official for
purposes of this litigation. “[T]he ‘public official’
designation applies at the very least to those among
the hierarchy of government employees who have, or
appear to the public to have, substantial responsibility
for or control over the conduct of governmental affairs.”
Rosenblatt v. Baer, 383 U.S. 75, 85 (1966). We agree
with the district court that serving as a NASA deputy
manager with substantial responsibility for the
shuttle’s propulsion systems amounted to control over
the conduct of governmental affairs.
We also note that NASA held out Lovingood as a
public official when it asked him to testify about the
shuttle before the presidential commission. In his 2016
deposition, Lovingood explained that he was chosen
because Marshall considered him to be the “‘corporate
memory’ about the space shuttle” and “the person who
knew the most about the space shuttle, all three
elements.” Apart from contemporary press coverage of
the Challenger investigation, the record also contains
arising from spite or ill will.” Masson v. New Yorker Magazine,
Inc., 501 U.S. 496, 510 (1991).
6

In accordance with his main argument—discussed below—that
we should disregard settled case law in this area, Lovingood
argues that his allegations should be considered libel per se,
regardless of whether he is a public official.

App. 11
many news articles from the 1980s in which Lovingood
was quoted by local and national media as an
authoritative source about the space shuttle program.
Lovingood also continued to hold himself out as one
with substantial responsibility for government affairs
following his retirement from NASA. He has continued
to give retrospective interviews about Challenger and
appeared in two separate television documentaries
about the disaster. For purposes of the First
Amendment’s protection of speech about the Challenger
tragedy, then, Lovingood was a public official.
With that threshold question resolved, we turn to
Lovingood’s main contention on appeal. Lovingood
invites us to create an exception to the well-established
New York Times standard for situations involving the
fictionalization of sworn testimony. He urges us, in
view of the sanctity of the testimonial oath and its
centrality to our legal system, to find that the “actual
malice” standard articulated by the Supreme Court
does not apply in the context of depictions of perjury.
We are not free to accept Lovingood’s invitation. As
the Supreme Court has instructed, “If a precedent of
this Court has direct application in a case . . . the Court
of Appeals should follow the case which directly
controls, leaving to this Court the prerogative of
overruling its own decisions.” Rodriguez de Quijas v.
Shearson/Am. Express, Inc., 490 U.S. 477, 484 (1989).
And indeed, that Court has steadfastly refused to
create new exceptions in defamation law for the last
fifty years. See, e.g., Masson v. New Yorker Magazine,
Inc., 501 U.S. 496, 516 (1991) (declining to create an
exception for inaccurate quotations); Milkovich v.

App. 12
Lorain Journal Co., 497 U.S. 1, 18 (1990) (declining “to
create a wholesale defamation exemption” for
opinions).
The Masson decision in particular merits closer
examination, for Lovingood relies heavily upon it. The
case involved a journalistic magazine article that
printed quotations attributed to the plaintiff that
undisputedly differed from his audiorecorded
interviews with the author. Masson, 501 U.S. at
501–08. The Court held that some of the alterations
were evidence of falsity for purposes of the New York
Times standard because they “result[ed] in a material
change in the meaning conveyed by the statement.” Id.
at 517. In so holding, the Court explained that the
appropriate inquiry when examining possibly
defamatory quotations is an objective one: would a
reader “reasonably understand the quotations to
indicate reproduction of a conversation that took
place”? Id. at 512.
Significantly for our purposes here, the Court
explained that, in some contexts, the answer to that
question is no. “In other instances, an acknowledgment
that the work is so-called docudrama or historical
fiction . . . might indicate that the quotations should
not be interpreted as the actual statements of the
speaker to whom they are attributed.” Id. at 512–13.
Thus, our “actual malice” inquiry must take into
account how a reasonable viewer would understand the
contents of the scene. We acknowledge that there is
some dispute over how this film’s genre should be
formally characterized. Discovery’s corporate
representative described it as a docudrama or a

App. 13
historical drama but distanced himself from a Science
Channel press release’s label of “fictional drama.” But
the perspective of the reasonable viewer encompasses
more than a one- or two-word label; it looks to the film
itself. Within the film, Discovery emphasizes the last of
the three title cards displayed in the first minute of the
film: “Some scenes have been created for dramatic
purposes.” Lovingood, by contrast, emphasizes the first
of those title cards: “This is a true story.”7
We find most telling, however, the overall format,
tone, and direction of the film. A reasonable viewer
would understand within the first two minutes that he
is not watching a documentary film that consists
mainly of historical footage and interviews with the
historical figures. He would recognize the parts of the
film that do use historical footage and understand that
they are meant to depict literal history, and he would
understand that most of the film uses actors to portray
historical events with some amount of artistic license.
He would also understand that condensing the entire
Challenger investigation into a 90-minute dramatic
film required the selective editing of real history not
only for time but also for clarity, flow, and emotional
impact. Finally, and most importantly, he would
understand that the film presents the Challenger story
not as a disinterested, objective narrative but through

7

In Lovingood’s complaint, he reprints this text in all capitals
(“THIS IS A TRUE STORY”), and it may have appeared that way
in the BBC-broadcast version of the film shown in the United
Kingdom. In the Discovery-broadcast version shown in the United
States, which is the only version at issue in this appeal, the title
text appears in upper- and lowercase as we have transcribed it.

App. 14
a single critical perspective—that of Feynman, who is
sympathetically portrayed by a recognizable actor and
who appears in nearly every scene. Overall, a
reasonable viewer would understand the film as
generally not purporting to present verbatim dialogue
from the pages of history.
Thus, as we determine whether Discovery acted
with actual malice when it republished the Lovingood
scene, the mere fact that the film contains altered
historical dialogue is not, in itself, evidence that
Discovery made statements with knowledge that they
were false, for purposes of the New York Times
standard. We will not apply a novel libel-per-se rule for
depictions of sworn testimony, nor are we invoking an
invincible shield of protection for all works
characterized as docudrama or historical fiction.
Rather, we will apply the actual malice standard that
the Supreme Court first articulated in New York Times
and has applied for more than fifty years, as did the
district court.
But before we may determine whether the
“defamatory falsehood relating to his official conduct
. . . was made with ‘actual malice,’” N.Y. Times, 376
U.S. at 279–80, we pause to identify what, exactly, is
the defamatory falsehood about Lovingood that
Discovery is alleged to have republished. According to
the complaint, it is “that Lovingood had lied about the
probability of total failure being 1 in 100,000 when
NASA’s own engineers had said it was 1 in 200.”
Compl. ¶ 7. In other words, Lovingood argues, the film
falsely depicts him committing the crime of perjury.

App. 15
Discovery insists that the scene does not depict
perjury because nothing in the film suggests that
Lovingood’s character lied or deliberately misled the
committee while under oath. With this characterization
we agree. Although the entire film, through Feynman’s
dialogue and demeanor, is critical of NASA’s
management and decision-making in general and the
10-5 figure in particular, the film does not paint
Lovingood as a liar. Nor does it imply any intent to
mislead; the Lovingood character’s demeanor as a
witness is calm, direct, and frank. And Feynman
responds to Lovingood’s testimony not with an
accusation or even a suggestion that he lied about
NASA’s calculation, but instead with incredulity
regarding the calculation itself.
Of course, Lovingood admits that he did in fact
report NASA’s 1-in-100,000 figure to Feynman in a
private meeting at Marshall. His objection is that the
film changed the context of that 10-5 figure from “the
probability that a flight would be uncompleted due to
a failure in this [main] engine” to the probability of “the
loss of the vehicle and the deaths of the entire crew.”
He asserts that those are two very different situations
given the possibility of aborting a launch and saving
the crew in the event of a main engine failure. He
argues that this alteration means that, because NASA
never actually calculated the probability of the deaths
of the entire crew as 10-5, his character necessarily
committed perjury when he answered the commission’s
question about crew deaths.8 The problem with this
8

Lovingood also objects to the film’s moving the 10-5 discussion to
his character’s sworn committee testimony, arguing that sworn

App. 16
argument, though, is that a viewer of the film does not
know what NASA did or did not actually calculate.
Without any basis for believing the calculation to be
false, the reasonable viewer would not perceive this
scene as depicting perjury.
Nonetheless, Lovingood’s broader point about
altering the meaning of the 10-5 figure has merit.
Discovery responds by downplaying the significance of
conflating the failure of the main engine with the
deaths of the entire crew. It notes that, under NASA’s
own criticality assessment, main engine failure was
classified as causing catastrophic loss of life or vehicle.
And even Feynman seems to conflate or equate these
two situations in his Appendix F to the commission’s
report. Nonetheless, for purposes of our summary
judgment review, we view the record in the light most
favorable to Lovingood and assume that there is a
meaningful difference between what he actually told
Feynman in reality and what his character testified in
the film.9

testimony should be sacrosanct and must never be altered from
historical reality. We have already rejected this argument about
the sanctity of the testimonial oath, declining to make a new per
se rule that would put dramatic depictions of sworn testimony
outside the reach of the First Amendment.
9

Of course, “[t]ruth is an absolute defense to defamation,” Liberty
Loan Corp. of Gadsden v. Mizell, 410 So. 2d 45, 49 (Ala. 1982), and
Discovery also argues that the scene was “substantially true” and
not defamatory because it was constructed from accurate historical
sources. See Masson, 501 U.S. at 516 (defamation law
“concentrates upon substantial truth”). But we will assume for the

App. 17
Thus, we will assume that Lovingood has alleged
that a false and defamatory statement was republished
by Discovery. As a public official speaking on a matter
of public concern, then, Lovingood must show that
Discovery acted with knowledge that the statements
about him were false, or with reckless disregard for
whether they were false. N.Y. Times, 376 U.S. at
279–80. We consider each of these bases for liability in
turn.
The first basis is straightforward. The record
contains no evidence at all that Discovery knew that
the lines spoken by the Lovingood character in the film
were false. This situation is not like Masson, where the
journalist herself conducted and tape-recorded
interviews with the plaintiff that she later quoted in
her article. Cf. 501 U.S. at 502. The BBC writer here,
by contrast, relied on 25-year-old historical materials,
including the commission’s hearing transcripts and

purposes of our review that Lovingood has alleged enough of a
departure from the historical record to get him to the next step of
our analysis.
We do not, however, endorse Lovingood’s out-of-context
quotation of the Supreme Court’s observation that “there is no
constitutional value in false statements of fact.” Gertz v. Robert
Welch, Inc., 418 U.S. 323, 340 (1974). Importantly, the Court went
on: “Although the erroneous statement of fact is not worthy of
constitutional protection, it is nevertheless inevitable in free
debate.” Id. Thus, in order to avoid the chilling of valuable speech,
“[t]he First Amendment requires that we protect some falsehood
in order to protect speech that matters.” Id. at 341. It is in view of
this tension between truth and liberty that the Supreme Court in
New York Times articulated the “actual malice” standard for
falsehoods involving public officials, and it is that test that we here
apply.

App. 18
Feynman’s book, when she wrote the film’s screenplay.
Lovingood himself concedes that Discovery’s executive
producer on the film, Rocky Collins, realized only years
after the film was broadcast that there was a
“discrepancy” between the book’s and the film’s
characterization of the 10-5 probability. The “actual
knowledge” basis for actual malice therefore fails.
Lovingood argues instead that Discovery acted with
reckless disregard for whether the statements about
him were false. He insists that Collins should have
read the hearing transcripts and Feynman’s book more
closely and that he should have been more aggressive
in his pursuit of the BBC’s research notes. To be sure,
we acknowledge that the record contains some
discrepancies about what Discovery subjectively
believed its responsibility was for fact-checking the
script of The Challenger Disaster. Discovery’s corporate
representative repeatedly asserted that the BBC had
sole responsibility for fact-checking and avoiding
defamation because it actually produced the film.
Under its master agreement with Discovery, the BBC
had warranted that “no Co-Produced Programme will
defame any individual or entity” and that “all
statements of fact contained in each Co-Produced
Programme shall, to the best of BBCW’s knowledge and
belief having undertaken diligent research in keeping
with generally accepted standards for first class
documentary film makers, be true and accurate.”
Collins testified, however, that, although he mainly
relied on the BBC to get the facts right, his job “was to
make sure that they [were] doing it.” He admitted,
though, that he personally only skimmed Feynman’s
book. Because we view the record in the light most

App. 19
favorable to Lovingood, we will assume for purposes of
our review that Discovery retained some responsibility
for fact-checking the film.
But even if we accept Lovingood’s view of what factchecking Discovery should reasonably have done, the
standard for reckless disregard is still higher.
“[F]ailure to investigate before publishing, even when
a reasonably prudent person would have done so, is not
sufficient to establish reckless disregard.” Harte-Hanks
Comm’ns, Inc. v. Connaughton, 491 U.S. 657, 688
(1989). Because actual malice is not an objective
standard, arguments about what a reasonable producer
should have done will not avail. Rather, to show
reckless disregard that amounts to actual malice, a
defamation plaintiff must point to evidence that the
defendant had real, subjective suspicions about the
veracity of the statement in question. “There must be
sufficient evidence to permit the conclusion that the
defendant in fact entertained serious doubts as to the
truth of his publication,” St. Amant v. Thompson, 390
U.S. 727, 731 (1968), or that he acted with a “high
degree of awareness of . . . probable falsity,” Garrison
v. Louisiana, 379 U.S. 64, 74 (1964). Lovingood has
identified no such evidence showing that anyone at
Discovery had actual doubts about the scene or real
awareness that the scene might be problematic. To the
contrary, the sole Discovery employee who purported to
have even a modicum of responsibility for the content
of the film affirmed his complete satisfaction with the
BBC’s fact-checking. “Every time I had any question,
they gave me satisfactory answers. Every time I said
what—have you had lawyers look at this, yes. Every
single—I had absolutely no reason to believe that they

App. 20
did not do their job. . . . I had no reason to—to suspect
that they weren’t doing their job.”
Instead of pointing to evidence of reckless disregard,
then, Lovingood argues that Discovery should be liable
because it was willfully blind to the falseness of the
scene. “The doctrine of willful blindness,” which
provides culpability equivalent to actual knowledge, “is
well established in criminal law.” Global-Tech
Appliances, Inc. v. SEB S.A., 563 U.S. 754, 766 (2011).
But neither the Supreme Court nor our Circuit has
ever applied that doctrine in the civil context of
defamation, and Lovingood cites no case doing so. Cf.
Hard Rock Cafe Licensing Corp. v. Concession Servs.,
955 F.2d 1143, 1149 (7th Cir. 1992) (equating willful
blindness with actual knowledge for purposes of
Lanham Act trademark violations). We need not
decide, however, whether to do so here because
Lovingood has presented no evidence that Discovery
acted with willful blindness to the falsity of the
statements. Willful blindness is an even higher
standard than recklessness, involving “deliberate
actions to avoid confirming a high probability of
wrongdoing” and nearly amounting to “actually
know[ing] the critical facts.” Global-Tech, 563 U.S. at
769. If Lovingood cannot point to evidence of
recklessness as actual malice, he necessarily cannot
establish willful blindness.
Thus, we conclude that Lovingood has not
established a genuine issue of material fact about
whether Discovery acted with actual malice. Discovery
is therefore entitled to the protection of the First

App. 21
Amendment, and the district court’s grant of summary
judgment in favor of Discovery is
AFFIRMED.

App. 22

APPENDIX B
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ALABAMA
NORTHEASTERN DIVISION
Case No. 5:14-cv-00684-MHH
[Filed July 9, 2018]
____________________________________
JUDSON A. LOVINGOOD,
)
)
Plaintiff,
)
)
v.
)
)
DISCOVERY
)
COMMUNICATIONS, INC., et al.,
)
)
Defendants.
)
___________________________________ )
ORDER
This matter is before the Court on Dr. Lovingood’s
Rule 59 motions to alter, amend, or vacate the Court’s
order granting summary judgment in favor of the
Discovery defendants. (Doc. 76; Doc. 77). Under
Federal Rule of Civil Procedure 59(e), a party may file
a motion to alter or amend a judgment within 28 days
after the entry of the judgment. FED. R. CIV. P. 59(e).
“‘The only grounds for granting [a Rule 59] motion are
newly-discovered evidence or manifest errors of law or

App. 23
fact.’” Arthur v. King, 500 F.3d 1335, 1343 (11th Cir.
2007) (quoting In re Kellogg, 197 F.3d 1116, 1119
(11th Cir. 1999) (alteration in Arthur)). “‘A Rule 59(e)
motion cannot be used to relitigate old matters, raise
[new] argument, or present evidence that could have
been raised before the entry of judgment.’” Jacobs v.
Tempur-Pedic Int’l., Inc., 626 F.3d 1327, 1344
(11th Cir. 2010) (quoting Arthur, 500 F.3d at 1343)
(alterations in original omitted). A litigant’s remedy if
he thinks a “district court[‘s] ruling [is] wrong, [is] to
appeal.” 626 F.3d at 1344.
In his motions to alter or amend judgment, Dr.
Lovingood does not contend that new evidence has
become available, and he has not brought to the Court’s
attention a change in controlling law. Instead, Dr.
Lovingood argues that the Court committed manifest
errors of law and fact. (Doc. 76, pp. 12-13; Doc. 77, pp.
5-6). Counsel for Dr. Lovingood states:
Plaintiff firmly contends that the Court was
in manifest error in both law and fact by
concluding that no reasonable jury could find
support for any legitimate inferences from the
evidence that Plaintiff could satisfy “the elusive
constitutional standard for actual malice.” (See
Doc. 74 at p. 22). The initial error which Plaintiff
encourages the Court to thoughtfully and
honestly reconsider is that a reasonable jury,
hearing appropriate legal instruction, could
determine there is sufficient evidence to
legitimately infer actual malice by willful
blindness to the falsity of this film. Such
purposeful avoidance meets the legal test for

App. 24
submission of the case to the jury. The court
cannot, under the law, ignore or massage the
testimony in the record on this critical issue by
leaning towards one legitimate inference over
and above any other.
(Doc. 79, p. 3). Challenging the Court for what Dr.
Lovingood’s counsel apparently sees as a derogation of
this Court’s obligations under the law, counsel
instructs:
Plaintiff asserts that this Court should
honestly and earnestly reconsider whether the
lenses used by the Court in viewing the record
and the law were distorted or improper for the
initial consideration of summary judgment. …
Therefore, we urge this honorable court to ignore
any human propensity to simply adhere to the
status quo and take the easy path of denying
Plaintiff’s motions.
(Doc. 79, pp. 4-5).
True, the Court entered judgment for the
defendants on Dr. Lovingood’s defamation and false
light claims, but a plain reading of this Court’s opinion
reveals that the Court applied the correct summary
judgment standard and presented the evidence in the
record in the light most favorable to Dr. Lovingood.
(See Doc. 74, p. 3 (stating that the Court “must view
the evidence in the record in the light most favorable to
the non-moving party and draw reasonable inferences
in favor of the non-moving party”)). In fact, Dr.
Lovingood’s motion for relief from summary judgment
rests in large part on the Court’s favorable

App. 25
interpretations of the evidence, such as the Court’s
recognition that Mr. Collins did not read Dr.
Feynman’s book (Doc. 76, p. 5); that Mr. Collins had
available to him two resources that he could have used
to verify the accuracy of the two scenes at issue in the
Challenger film (Doc. 76, p. 7; Doc. 79, p. 4); and that
“Mr. Collins made virtually no independent effort to
determine whether the BBC accurately portrayed Dr.
Lovingood in the docudrama.” (Doc. 76, pp. 7-8 (quoting
Doc. 74, p. 21)); Doc. 79, p. 4). The Court is hardpressed to imagine how to give greater credit to the
evidence that favors Dr. Lovingood. Dr. Lovingood’s
assertion that the Court “massaged” the facts in favor
of the defendants finds no support in the record.
Dr. Lovingood’s true concern is not the evidence; his
quarrel is with the actual malice standard that applies
to his claim against the Discovery defendants who
republished the BBC’s production. This is the legal
instruction regarding actual malice that jurors likely
would hear if this case were to go to trial:
Dr. Lovingood must prove by clear and
convincing evidence that when Discovery
republished the statement at issue, it knew the
statement was false or it republished the
statement with reckless disregard to whether
the statement was false or not.
Discovery acted with reckless disregard if, at the
time it republished the statement, it had a
serious doubt that the statement was true, or it
had a high degree of awareness that the
statement was false. Thus, you have to
determine Discovery’s state of mind when it

App. 26
republished the statement. Dr. Lovingood must
prove that Discovery actually had a serious
doubt that the statement was true.
To determine whether Discovery acted with
reckless disregard, you must not consider
whether a reasonably prudent person would
have republished the statement. You must not
consider whether a reasonably prudent person
would have investigated before republishing the
statement. But, if Discovery failed to investigate
because it intended to avoid the truth, this is
evidence that Discovery either knew the
statement was false or acted with reckless
disregard to whether the statement was false or
not.
Clear and convincing proof requires a degree of
belief greater than proof to your reasonable
satisfaction from the evidence. It is proof that
establishes it is highly probable that when
Discovery republished the statement, it knew it
was false or acted with reckless disregard to
whether it was false or not.
Alabama Pattern Jury Instruction (Civil) 23.03 (3d ed.
2015).
Dr. Lovingood has offered no evidence that
Discovery, acting through Mr. Collins, knew that
information regarding Dr. Lovingood in the Challenger
film was false. Therefore, at trial, Dr. Lovingood would
have to be able to prove to a jury that it was highly
probable that when Discovery republished the
Challenger docudrama, with its two scenes that

App. 27
describe estimates of mission failure (a calculation that
neither Dr. Lovingood nor any other NASA engineer
made) rather than main engine failure (a statistic that
NASA’s engineers could calculate and guard against),
Discovery, through Mr. Collins, failed to investigate the
distinction because Discovery intended to avoid the
truth.
The Court, viewing the evidence in the light most
favorable to Dr. Lovingood, concluded that a reasonable
jury, hearing Alabama’s actual malice pattern jury
instruction (tweaked slightly to incorporate references
to republishing rather than publishing), could not
determine there is sufficient evidence to legitimately
infer actual malice. The Court held:
there is nothing so improbable in the scene of
Dr. Lovingood’s testimony before the
Presidential Commission that would have
prompted Mr. Collins to obtain a transcript of
the hearing to investigate the accuracy of the
scene. Although it is abundantly clear to Dr.
Lovingood and to his colleagues from NASA that
the scene contains false information, there is
nothing that would prompt an observer lacking
Dr. Lovingood’s expertise to recognize the
significant engineering distinction between main
engine failure and mission failure. The analysis
is not altered by the fact that Mr. Collins now
acknowledges in retrospect and in light of this
litigation that the statements attributed to Dr.
Lovingood in the Challenger film are inaccurate
because the record contains no evidence that
indicates that the distinction was discernible

App. 28
when Mr. Collins first reviewed the movie. And
unlike the evidence in Harte-Hanks Commc’ns
and Hunt that suggested that the reporters’
sources were unreliable, there is no evidence in
the record here that the BBC is not a reputable
producer of television programs and movies.
Therefore, there is no evidence from which
jurors could reasonably infer that the Discovery
defendants had reason to doubt the accuracy of
the scenes in the Challenger film or that the
defendants’ failure to do more to investigate the
accuracy of the two scenes at issue evidences “an
intent to avoid the truth.” See p. 17, above. The
evidence in the record may rise to the level of
negligence, but it does not go further.
(Doc. 74, pp. 23-24).
The Court observed that the Challenger film is not
a newspaper article. It is not even an editorial. It is a
docudrama, drama being the operative term. The Court
noted that the initial frames of the film state: “This is
a true story” (Doc. 60-26, 1:36), and explain that: “Some
scenes have been created for dramatic purposes” (Doc.
60-26, 2:06). The fact that Mr. Collins knew that scenes
within the movie were created for dramatic purpose
significantly reduces the likelihood that he would feel
the need to investigate a statement about mission
failure because of concern that the scene should have
pertained to main engine failure instead, assuming he
would notice and appreciate the distinction. There is
nothing so facially implausible about the disputed
calculation that non-scientists, such as the people
charged with producing the film, would suspect that

App. 29
the film stated something untrue in the course of its
dramatized depictions of real events.
In reaching this conclusion, the Court appreciates
how painful the Challenger disaster was for Dr.
Lovingood and his colleagues, and the Court
understands the importance of the context of the scene
involving Dr. Lovingood’s sworn statements to the
Presidential Commission. The Court has read articles
that recount the grief that NASA engineers still
experience 30 years after the loss. As a result, the
Court understands why the distinction between
mission failure and main engine failure is so significant
to Dr. Lovingood and his colleagues. The Court simply
does not believe that Alabama law provides a remedy
for Dr. Lovingood on the record before the Court. For
the reasons explained in its memorandum opinion
granting Discovery’s motion for summary judgment
(Doc. 74), the Court finds that the Discovery
defendants are entitled to judgment in their favor on
Dr. Lovingood’s claims.
Citing Lane v. Franks, 134 S. Ct. 2369 (2014), Dr.
Lovingood argues in his Rule 59 submissions that he
was private citizen when he testified before the
Presidential Commission examining the Challenger
disaster, and therefore, the actual malice standard does
not apply. (Doc. 77, pp. 2-4). “A motion for
reconsideration should not be used to present
authorities available at the time of the first decision or
to reiterate arguments previously made.” Z.K. Marine,
Inc. v. Archigetis, 808 F. Supp. 1561, 1563 (S.D. Fla.
1992). The Lane decision was available to Dr.
Lovingood when he filed his opposition to the

App. 30
defendants’ motion for summary judgment, so the
Court need not consider that authority now.
Had Dr. Lovingood cited Lane in his opposition to
the defendants’ summary judgment motion, the Court
still would have concluded that Dr. Lovingood is a
public official for purposes of his claims against the
defendants. This is because Lane and the proposition
which Dr. Lovingood extracts from the opinion are not
applicable to this case. Dr. Lovingood cites Lane to
argue that when he “gave sworn testimony to the
Commission, he did so as a citizen not a public official.”
(Doc. 77, p. 3). But here, the issue is not Dr.
Lovingood’s First Amendment right to provide
testimony without fear of his employer’s retaliation, as
it was for Edward Lane; it is the extent to which the
First Amendment protects the defendants’
republication of an inaccurate version of Dr.
Lovingood’s testimony. The possibility that Dr.
Lovingood may have testified as a citizen, rather than
a NASA employee, when he appeared before the
Presidential Commission, does not prevent him from
being a public official for purposes of his defamation
and false light claims.1 Dr. Lovingood provides no
reason why the Court must limit its inquiry into his
status to the single instance in which he testified at the
commission hearing. Alabama law instructs courts to
examine the general responsibilities of the plaintiff’s
position or employment when determining whether the

1

The Court notes that if Dr. Lovingood was subpoenaed to speak
before the commission as a representative of his employer, NASA,
he would not necessarily have testified simply as a private citizen.
See Lane, 134 S. Ct. at 2384–85.

App. 31
heightened First Amendment standard governs a
plaintiff’s defamation claim. Accordingly, the Court, in
its memorandum opinion, looked to the status
conferred on Dr. Lovingood by virtue of his position
with NASA and determined that he was a public
official. This conclusion is not undermined by the
possibility that Dr. Lovingood’s sworn testimony before
the commission was outside the scope of his
employment.
Dr. Lovingood bases much of his argument in his
Rule 59 submissions on obligations arising out of the
contract between BBC and Discovery. For example, he
argues that the agreement between those entities
“affixed and confirmed the voluntary agreement of
Discovery to a non-delegable duty to assure the
accuracy of such a film and prevent any false,
defamatory content.” (Doc. 76, pp. 4-5) (emphasis in
Doc. 76). Dr. Lovingood posits that the Court “cannot
reconstruct or massage the negotiated and accepted
duty . . . .” (Doc. 76, p. 5). The Court accepts that such
a contractual duty may exist between BBC and
Discovery, and Dr. Lovingood, if he had chosen, could
have asserted that he is a third-party beneficiary of
that contractual obligation such that he is entitled to
damages for an alleged breach of that duty. Had he
asserted such a claim, the substantial evidence
standard would apply, not the clear and convincing
standard that governs Dr. Lovingood’s defamation
claim, and such a third-party beneficiary claim might
survive summary judgment on the record before the
Court. The issue is moot because Dr. Lovingood did not

App. 32
assert a third-party beneficiary breach of contract
claim.2
Accordingly, the Court denies Dr. Lovingood’s
motions to alter or amend the Court’s order entering
judgment for the Discovery defendants on Dr.
Lovingood’s claims. (Doc. 76; Doc. 77).
DONE and ORDERED this 9th Day of July, 2018.
s/______________________________
MADELINE HUGHES HAIKALA
UNITED STATES DISTRICT JUDGE

2

Much of Dr. Lovingood’s argument about Discovery’s breach of its
contractual obligation concerns Mr. Collins’s testimony that he had
an obligation to double check the BBC’s work. Dr. Lovingood
devotes pages of his request for relief to his characterization of Mr.
Collins’s testimony. (Doc. 76, pp. 4-7; Doc. 79, pp. 3-4). Dr.
Lovingood takes Mr. Collins’s testimony out of context and
suggests that the Court should ignore that context so as to view
the evidence in the light most favorable to Dr. Lovingood. That is
not a proper summary judgment standard. Viewing the evidence
in the evidence in the light most favorable to the non-moving party
is not synonymous with cherry-picking phrases and disregarding
the portions of testimony that do not serve the non-movant’s
purpose.

App. 33

APPENDIX C
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ALABAMA
NORTHEASTERN DIVISION
Case No. 5:14-cv-00684-MHH
[Filed August 1, 2017]
____________________________________
JUDSON A. LOVINGOOD,
)
)
Plaintiff,
)
)
v.
)
)
DISCOVERY
)
COMMUNICATIONS, INC., et al.,
)
)
Defendants.
)
___________________________________ )
MEMORANDUM OPINION
In 2013, The Discovery Channel broadcast a film
that the British Broadcasting Corporation made
regarding the Challenger shuttle disaster. Launched in
1986, the Space Shuttle Challenger came apart shortly
after takeoff. The shuttle crashed, killing the shuttle’s
seven crew members. The BBC film entitled “The
Challenger Disaster” recounts the investigation
following the crash through the eyes of Dr. Richard P.

App. 34
Feynman, a physics professor who was involved in the
investigation. (Doc. 60-6, p. 13).
The plaintiff in this action, Dr. Judson A.
Lovingood, became involved in NASA’s shuttle program
in 1969 when NASA instituted the program. (Doc. 60-6,
p. 64). In 1986, Dr. Lovingood was the deputy manager
of the shuttle projects office at Marshall Space Flight
Center, and he was partially responsible for overseeing
the development and operation of the propulsion
systems for the Challenger shuttle. (Doc. 60-6, pp.
14–15). When President Ronald Reagan established a
Presidential Commission to investigate the cause of the
Challenger accident, NASA tapped Dr. Lovingood to
testify before the Commission because of the depth of
his knowledge regarding the shuttle’s design. (Doc.
60-6, p. 64). In this lawsuit, Dr. Lovingood contends
that the BBC film that the Discovery defendants
broadcast in the United States defames him and places
him in a false light. (Doc. 1-1).1
The scene in the Challenger film that concerns Dr.
Lovingood is short but poignant, especially to Dr.
Lovingood. The scene depicts Dr. Lovingood testifying
before the Presidential Commission. The actor who

1

Dr. Lovingood asserts his claims against three related
defendants: Discovery Communications, Inc., The Discovery
Channel, and The Science Channel. (Doc. 1-1). For convenience,
the Court refers to the defendants as “Discovery Channel” or “the
Discovery defendants.” Dr. Lovingood also named the British
Broadcasting Corporation, The Open University, and writer Kate
Gartside as defendants in this action. (Doc. 1-1). The Court
previously dismissed Dr. Lovingood’s claims against these
defendants. (Docs. 30, 36).

App. 35
portrays Dr. Lovingood represents to the Commission
that NASA engineers had calculated, and therefore
were aware of, the probability of complete mission
failure and the deaths of the members of the
Challenger crew. (Doc. 60-26). It is undisputed that
there never was such a calculation, and Dr. Lovingood
never gave such testimony before the Presidential
Commission. Dr. Lovingood contends that the
Discovery Channel should have detected the false
information in the film and refused to broadcast the
film with the defamatory content.
Pursuant to Federal Rule of Civil Procedure 56, the
Discovery defendants ask the Court to enter judgment
in their favor on Dr. Lovingood’s claims. The
defendants argue that Dr. Lovingood was a public
official and that his status as a public official requires
him to prove by clear and convincing evidence that
Discovery acted with actual malice when it broadcast
the BBC film containing the false testimony. (Doc. 63,
pp. 12–14, 17–20). The defendants contend that on the
record before the Court, Dr. Lovingood cannot carry
this burden. For the reasons stated below, the Court
grants the Discovery defendants’ motion for summary
judgment.
I. SUMMARY JUDGMENT STANDARD
“The court shall grant summary judgment if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” FED. R. CIV. P. 56(a). To
demonstrate that there is a genuine dispute as to a
material fact that precludes summary judgment, a
party opposing a motion for summary judgment must

App. 36
cite “to particular parts of materials in the record,
including depositions, documents, electronically stored
information, affidavits or declarations, stipulations
(including those made for purposes of the motion only),
admissions, interrogatory answers, or other materials.”
FED. R. CIV. P. 56(c)(1)(A). “The court need consider
only the cited materials, but it may consider other
materials in the record.” FED. R. CIV. P. 56(c)(3). When
considering a summary judgment motion, the Court
must view the evidence in the record in the light most
favorable to the nonmoving party and draw reasonable
inferences in favor of the non-moving party. White v.
Beltram Edge Tool Supply, Inc., 789 F.3d 1188, 1191
(11th Cir. 2015).
II. BACKGROUND
When the Challenger accident occurred in 1986, Dr.
Lovingood was working as the deputy manager of the
space shuttle projects office at NASA’s Marshall Space
Flight Center. (Doc. 60-6, p. 14). Dr. Lovingood had
distinguished himself as the individual at NASA who
had the greatest institutional knowledge of the shuttle.
(Doc. 60-6, p. 64). Dr. Lovingood also was one of the few
people at NASA who could discuss the shuttle’s main
engine, the solid booster, and the external tank. Other
engineers could address only one of the three
components. (Doc. 60-6, pp. 63–64). Given his breadth
of knowledge, it comes as no surprise that NASA
designated Dr. Lovingood to testify before the
Presidential Commission that investigated the crash of
the Challenger shuttle.
Dr. Feynman, a Nobel Laureate and physics
professor at Caltech, was a member of the Presidential

App. 37
Commission. He wrote a book about his experience on
the commission. The book is entitled What Do You Care
What Other People Think?. (Doc. 60-6, p. 13; see also
Doc. 63, p. 10; Doc. 65, p. 4). The BBC’s film entitled
“The Challenger Disaster” is based on Dr. Feynman’s
book. The BBC licensed Discovery to broadcast the film
in the United States. (Doc. 60-1, pp. 2–4; Doc. 63,
¶¶ 17–18; see also Doc. 60-9). The film premiered on
The Discovery Channel and The Science Channel on
November 16, 2013. (Doc. 1-1, ¶ 3).
“The Challenger Disaster” film begins with the
following message displayed in white letters on a black
screen: “This is a true story.”2 (Doc. 60-26, 1:36).3 The
text then indicates that the film is based on Dr.
Feynman’s book “and on interviews with key
individuals.” (Doc. 60-26, 1:48). A final line of text
states: “Some scenes have been created for dramatic
purposes.” (Doc. 60-26, 2:06). All three messages
appear in white against a black screen, in the same

2

In his complaint, Dr. Lovingood alleges that the statement, “This
is a true story” appears in the opening moments of the film in all
caps like this: “THIS IS A TRUE STORY.” (Doc. 1-1, ¶ 4). In its
opinion denying the Discovery defendants’ motion to dismiss, the
Court accepted Dr. Lovingood’s allegation and stated that the film
“begins with the following message displayed in bold print: ‘THIS
IS A TRUE STORY.’ (Doc. 1-1, ¶ 4).” When it reviewed the film to
evaluate the defendants’ motion for summary judgment, the Court
learned that the film does not emphasize the text as Dr. Lovingood
alleges.
3

Doc. 60-26 is a DVD of “The Challenger Disaster” film that the
Discovery defendants filed with the Court. Citations to specific
time signatures are approximate.

App. 38
font, and all three are approximately the same size.
(Doc. 60-26, 1:36–2:10).
The film, which the Discovery defendants describe
as a “docudrama,” centers on Dr. Feynman’s efforts to
identify the cause of the Challenger disaster. (See
generally Doc. 60-26).4 Along the way, Dr. Feynman
encounters resistance and secrecy from other members
of the Commission and from individuals associated
with NASA and the United States government. (See
generally Doc. 60-26). Dr. Feynman persists, and
ultimately he leads the Commission to discover that an
improperly sealed “O-ring” on the right solid rocket
booster caused the crash. (See, e.g., Doc. 60-26,
1:21:50–1:25:01; see also Doc. 1-1, ¶ 2; Doc. 60-6, p. 12).
In the film, during the course of his investigation, Dr.
Feynman reveals that NASA knew of significant risks
associated with the O-rings but chose to launch the
shuttle anyway. (See generally Doc. 60-26).
Dr. Lovingood’s claims relate to two scenes in the
film. In the first scene, Dr. Feynman eats lunch with
two NASA engineers in a cafeteria. Dr. Feynman
introduces himself to the engineers and states that he
is “on the Commission.” (Doc. 60-26, 21:37). One of the
engineers replies, “I got nothing to hide.” (Doc. 60-26,
21:28). Dr. Feynman then asks, “If I was to ask you
engineers—never mind what the managers say, but
you guys—given all your experience, what you thought
4

According to the Discovery defendants, a docudrama “is a
scripted film that uses actors to portray historical events.” (See
Doc. 63, ¶ 22; see also Doc. 60-8, p. 39). Rocky Collins, Discovery’s
executive producer of “The Challenger Disaster,” referred to the
film as a “fictional drama” in his deposition. (Doc. 64-12, p. 6).

App. 39
the probability was of an accident on any single launch,
what would you say?” (Doc. 60-26, 21:45). The
engineers avoid Dr. Feynman’s eye. Dr. Feynman says,
“If you don’t want to say out loud, perhaps you could
write down on a piece of paper.” (Doc. 60-26, 21:54).
The engineers exchange uneasy glances, and the scene
cuts away. Later, Dr. Feynman discovers a
handwritten note in his coat pocket that reads, “We
think Ivory Soap.” (Doc. 60-26, 31:50). The audience
later learns that “We think Ivory Soap” is a reference
to a 19th-century advertising slogan for Proctor &
Gamble’s “Ivory” soap. (Doc. 60-26, 1:07:44–1:08:14).
The slogan touted Ivory soap as 99.44% pure. (See Doc.
60-26, 1:07:46).
The second scene portrays Dr. Lovingood and NASA
shuttle program manager Lawrence Mulloy testifying
before the Presidential Commission. In the scene, Dr.
Feynman asks Dr. Lovingood and Mr. Mulloy, “Can you
remind me what NASA calculates the probability of
shuttle failure to be? Failure meaning the loss of the
vehicle and the deaths of the entire crew.” (Doc. 60-26,
1:19:05). The chairman of the Commission invites Dr.
Lovingood to answer, and Dr. Lovingood reads from a
stack of paper: “Certainly, that would be 1 in 10 to the
power of 5.” (Doc. 60-26, 1:19:10). The scene proceeds
as follows.
Dr. Feynman: “Really? Would you explain that?”
Dr. Lovingood: “Yes, the probability of mission
success is 100%, minus epsilon.”
Dr. Feynman: “Epsilon, that’s a pretty fancy word.
Let’s put all that you said there into English. So

App. 40
that’s, um, that’s one failure in every 100,000
flights. So you claim that the shuttle would fly
every day for 300 years before there would be a
single failure. That’s crazy, I mean, how would you
ever even test that?”
Dr. Lovingood: “NASA arrived at that figure
because it was a manned flight.”
Dr. Feynman: “Because there were people on board,
but that is not a scientific calculation, that’s a wish.
And interesting that the figure is very different
from that of NASA’s own engineers based on their
direct experience and observation of many known
component problems, some of NASA’s engineers
calculate the probability of success as only 99.4%, in
other words that’s roughly one flight in every 200
will fail.”
(Doc. 60-26, 1:19:17–1:20:23). 5
Both scenes are fabrications. (See Doc. 65, pp. 5–11).
In reality, the meeting portrayed in the film in the
cafeteria took place in a conference room at Marshall
Space Flight Cente, and Dr. Lovingood was present.
(Doc. 60-6, p. 62). At the meeting, Dr. Feynman did not
ask what “the probability was of an accident on any
single launch.” (See Doc. 60-6, pp. 62, 66; p. 6, above).
Rather, Dr. Feynman asked the engineers to write
down the probability of the Challenger mission not
being completed because of a failure of the main
engine. (Doc. 60-6, p. 66; Doc. 63, ¶6; Doc. 64-1, p. 5;

5

Other than in this scene, Dr. Lovingood appears only for a few
brief moments in the film.

App. 41
Doc. 65, p. 5). From an engineering perspective, the
distinction is significant. Dr. Lovingood testified that,
because of a series of safety redundancies that were
designed to activate upon a failure of the main engine,
the likelihood that a malfunction of the main engine
would cause the mission to fail was low. (See Doc. 60-6,
pp. 44–45). Indeed, the Commission concluded that the
main engine functioned properly during the Challenger
flight and did not contribute to the crash. (Doc. 60-6,
pp. 21–22). In a nod to the Ivory soap slogan, one of the
engineers wrote 99.44/100% pure, which Dr. Lovingood
“thought was silly,” and another engineer wrote
1 in 300. (Doc. 60-6, p. 67; Doc. 64-1, p. 4). Dr.
Lovingood provided Dr. Feynman with “the official
NASA number,” 1 in 100,000. (Doc. 60-6, pp. 72–73). 6
Like the cafeteria scene, the scene that depicts Dr.
Lovingood testifying before the Presidential
Commission “never took place in reality and truth.”
(Doc. 65, p. 11). Dr. Lovingood did not testify “that the
probability of total mission failure was 1 in 100,000,”
and “[n]o engineer ever said it was 1 in 200.” (Doc. 1-1,
¶ 7). The probability of such an event, says Dr.
Lovingood, was “[n]ever addressed at all by NASA or
any of the engineers.” (Doc. 60-6, pp. 346–47; see also
Doc. 65, pp. 10–11).
In short, Dr. Lovingood did provide Dr. Feynman
with a 1-in-100,000 estimate, but he provided the

6

Dr. Lovingood testified that he provided Dr. Feynman with the
official NASA report that contained the basis for the 1-in-100,000
estimate after the meeting at Marshall Space Flight Center. (Doc.
60-6, p. 73).

App. 42
estimate at Marshall Space Flight Center, not before
the Presidential Commission, and the estimate was of
the probability that a main-engine malfunction would
cause the Challenger mission to fail, not of the
probability of “the loss of the vehicle and the deaths of
the entire crew.” In addition, NASA engineers did
provide Dr. Feynman with a 1-in-200 estimate, but the
estimate, like Dr. Lovingood’s, was of the probability
that a main-engine malfunction would cause the
mission to fail, not of the probability of “an accident on
any single launch.” See pp. 6, 8, above. Mr. Collins, the
executive producer of the Challenger film for the
Discovery defendants, has acknowledged that “[t]he
exact dialogue that you see in the film . . . was not
actually spoken by Lovingood [or anyone else] in front
of the Commission.” (Doc. 64-12, p. 8; Doc. 65, pp. 4–5).
The suggestion of the film as a whole, and of these
two scenes in particular, according to Dr. Lovingood, is
that Dr. Lovingood ignored significant risks associated
with the Challenger mission, lied under oath regarding
NASA’s knowledge of the risks, and participated in
NASA’s efforts to conceal the cause of the crash. (See
Doc. 60-6, pp. 44–45). It is fair to say that the tone of
the film is not complimentary of NASA. Dr. Lovingood
asserts that the film defames him and places him in a
false light, and he asks the Court to award him
compensatory and punitive damages. (Doc. 1-1, p. 74).
III.

DISCUSSION
A. Dr. Lovingood’s defamation claim

To establish a prima facie case of defamation under
Alabama law, a plaintiff must show: “[1] that the

App. 43
defendant was at least negligent [2] in publishing [3] a
false and defamatory statement to another
[4] concerning the plaintiff, [5] which is either
actionable without having to prove special harm
(actionable per se) or actionable upon allegations and
proof of special harm (actionable per quod).” Ex parte
Bole, 103 So. 3d 40, 51 (Ala. 2012) (quoting Ex parte
Crawford Broad. Co., 904 So. 2d 221, 225 (Ala. 2004))
(emphasis and internal quotation marks omitted). If a
court determines that a plaintiff in a defamation action
is “a public official, public figure, or limited-purpose
public figure,” then the plaintiff must establish by clear
and convincing evidence “that the defamatory
statement was made with ‘actual malice’—that is, with
knowledge that it was false or with reckless disregard
to whether it was false or not.” Cottrell v. Nat’l
Collegiate Athletic Ass’n, 975 So. 2d 306, 333 (Ala.
2007) (citing New York Times, Co. v. Sullivan, 376 U.S.
254, 280 (1964)); Gertz v. Robert Welch, Inc., 418 U.S.
323, 342 (1974); Curtis Publ’g Co. v. Butts, 388 U.S.
130, 162–164 (1967) (internal quotation marks
omitted).
This case concerns Discovery’s republication of false
information concerning Dr. Lovingood and the
engineers who worked on the Challenger mission.
“[O]ne who repeats or otherwise republishes
defamatory matter is subject to liability as if he had
originally published it.” Restatement (Second) of Torts
§ 578. “[T]he republisher of a defamatory statement
made by another remains subject to liability
(Restatement (Second) of Torts § 578 (1977)), but he
cannot be held liable unless he himself knew at the
time when the statement was published that it was

App. 44
false, or acted in reckless disregard for its truth or
falsity.” Schwartz v. Am. Coll. of Emergency
Physicians, 215 F.3d 1140, 1145 (10th Cir. 2000)
(quoting Catalano v. Pechous, 419 N.E.2d 350, 361 (Ill.
1980)) (internal quotation marks omitted).7
The Discovery defendants argue that they are
entitled to judgment as a matter of law on Dr.
Lovingood’s defamation claim because Dr. Lovingood is
a public official, and he cannot prove by clear and
convincing evidence that the Discovery defendants
acted with actual malice when they broadcast the film
that contains false information about Dr. Lovingood.
(Doc. 63). On the record in this case, the Court agrees
that the defendants are entitled to judgment on Dr.
Lovingood’s claims.8
1. Dr. Lovingood’s status
Whether Dr. Lovingood is a public official, a public
figure, or a private individual is a question of law for
the trial judge. See Ex parte Rudder, 507 So. 2d 411,

7

The Court has located no Alabama Supreme Court or Alabama
Court of Civil Appeals decisions concerning republication of
defamatory material; however, the Alabama Supreme Court
follows the Restatement (Second) of Torts in defamation cases, and
many states have adopted the Restatement standard regarding
republication. See, e.g., Hillman v. Yarbrough, 936 So. 2d 1056
(Ala. 2006); Larrimore v. Dubose, 827 So. 2d 60, 61 (Ala. 2001);
Catalano v. Pechous, 419 N.E.2d 350 (Ill. 1980).
8

Because the Court finds that the Discovery defendants are
entitled to summary judgment for the reasons stated below, the
Court does not discuss the defendants’ alternative arguments in
favor of their motion for summary judgment.

App. 45
416 (Ala. 1987); see also Rosenblatt v. Baer, 383 U.S.
75, 88 (1966); Barnett v. Mobile Cty. Personnel Bd., 536
So. 2d 46, 54 (Ala. 1988). The record in this case,
viewed in the light most favorable to Dr. Lovingood,
demonstrates that Dr. Lovingood is a public official.
Although it is not clear “‘how far down into the
lower ranks of government employees the ‘public
official’ designation’” extends, the United States
Supreme Court has held that the designation “applies
at the very least to those among the hierarchy of
government employees who have, or appear to the
public to have, substantial responsibility for or control
over the conduct of governmental affairs.” Rosenblatt,
383 U.S. at 85 (quoting New York Times, 376 U.S. at
283 n. 23). “Where a position [] has such apparent
importance that the public has an independent interest
in the qualifications and performance of the person who
holds it, beyond the general public interest in the
qualifications and performance of all government
employees, . . . the New York Times malice standards
apply.” Rosenblatt, 383 U.S. at 86. According to the
Alabama Supreme Court, “[a] ‘public official’ must hold
a position that would invite public scrutiny of the
person holding it, apart from the scrutiny and
discussion occasioned by the allegedly defamatory
remarks.” Barnett, 536 So. 2d at 54.
In Barnett, the Alabama Supreme Court ascribed
public official status to a former town clerk who “had
the primary responsibility for organizing and issuing
the payroll for the town.” 536 So. 2d at 47, 54. Citing
Rosenblatt, the Court based its determination on the
town clerk’s role as “a governmental employee who had

App. 46
substantial responsibility for, or control over, the
conduct of governmental affairs.” Id. (citing Rosenblatt,
383 U.S. at 85). In Warren v. Birmingham Board of
Education, the Alabama Court of Civil Appeals found
that the principal of an elementary school was a public
official, “similar to the . . . town clerk in Barnett.” 739
So. 2d 1125, 1129, 1133 (Ala. Civ. App. 1999). In
Stewart v. Town of Zolfo Springs, Florida, the United
States District Court for the Middle District of Florida
found that a municipal police officer was a public
official and applied the New York Times actual malice
standard to its analysis of the officer’s defamation
claim. 1997 WL 689448, *3 (M.D. Fla. Aug. 27, 1997).
Courts outside the Eleventh Circuit also have
attributed public official status to positions within the
“lower ranks of government employees.” Rosenblatt,
383 U.S. at 85; see, e.g., Zerangue v. TSP Newspapers,
Inc., 814 F.2d 1066, 1069 (5th Cir. 1987) (attributing
public official status to county law enforcement
officers); Price v. Viking Penguin, Inc., 676 F. Supp.
1501 (D. Minn. 1988) (attributing public official status
to an FBI agent); see also L. Tribe, American
Constitutional Law 866 (2d ed. 1988) (“[T]he term
‘public official’ now embraces virtually all persons
affiliated with the government, such as most ordinary
civil servants, including public school teachers and
policemen.”).
There is no doubt that NASA’s space program is a
matter of public interest, and NASA employees
involved in the design of NASA’s space shuttles invite
public scrutiny of their work, particularly with respect
to the shuttles’ ability to provide safe passage to the

App. 47
members of the shuttles’ crews. As the deputy manager
of the space shuttle projects office at Marshall Space
Flight Center, Dr. Lovingood was partially responsible
for overseeing the development and operation of the
propulsion systems for the Challenger shuttle. (Doc.
60-6, pp. 14–15). After the crash, Dr. Lovingood was
“the Marshall lead man in briefing the Presidential
Commission on the space shuttle main engine, the solid
booster, and the external tank.” (Doc. 60-6, p. 63). Dr.
Lovingood testified that he “was considered to be the
person who knew the most about the space shuttle.”
(Doc. 60-6, p. 64).
Thus, Dr. Lovingood was a government employee
who had “substantial responsibility for or control over
the conduct of governmental affairs.” Rosenblatt, 383
U.S. at 85. Dr. Lovingood’s roles in the Challenger
mission and in the Commission’s subsequent
investigation were of particular importance, such that
“the public has an independent interest in [Dr.
Lovingood’s] qualifications and performance.”
Rosenblatt, 383 U.S. at 86; see also Barnett, 536 So. 2d
at 54.9

9

Dr. Lovingood retired from NASA in 1988. (Doc. 60-6, p. 222; see
generally Doc. 60-6, pp. 222–225). For purposes of this litigation,
he did not lose his status as a public official when he retired. See
Zarangue v. TSP Newspapers, Inc., 814 F.2d 1066, 1069 (5th Cir.
1987) (explaining that the court of appeals located “no cases
holding that public official status erodes with the passage of time”
and that “[o]ther courts have held that ex-public officials must
prove that ‘actual malice’ prompted speech concerning their
in-office activities. See, e.g., Rosenblatt v. Baer, 383 U.S. 75, 87
n. 14, 86 S.Ct. 669, 677 n. 14, 15 L.Ed.2d 597 (1966); Pierce v.
Capital Cities Communications, Inc., 576 F.2d 495 (3d Cir.), cert.

App. 48
Consequently, the Court finds as a matter of law that
Dr. Lovingood is a public official.10
2. Actual malice
Because he is a public official for purposes of this
litigation, to survive the Discovery defendants’
summary judgment motion, Dr. Lovingood must be
able to show by clear and convincing evidence that the
Discovery defendants acted with actual malice when
they broadcast in the United States a BBC film that
falsely portrays Dr. Lovingood’s testimony before the
Presidential Commission and NASA engineers’
conversation with Dr. Feynman at Marshall Space
Flight Center. Harte-Hanks Commc’ns v. Connaughton,
491 U.S. 657, 666 (1989).

denied, 439 U.S. 861, 99 S.Ct. 181, 58 L.Ed.2d 170 (1978);
Arnheiter v. Random House, Inc., 578 F.2d 804 (9th Cir.1978).”).
10

Dr. Lovingood argues that he is a private citizen rather than a
public figure or a limited purpose public figure, but Dr. Lovingood
does not address Discovery’s arguments that he is a public official.
(See Doc. 63, pp. 12–14; Doc. 65, pp. 19–23, 30; Doc. 67, pp. 3–4).
“In defamation actions, a plaintiff is [] a private person, a public
official, or a public figure, either in general or for the limited
purpose of a particular controversy.” Cottrell v. Nat’l Collegiate
Athletic Ass’n, 975 So.2d 306, 333 (Ala. 2007). Public officials hold
governmental office, whereas public figures “seek the public’s
attention” or gain it “by reason of the notoriety of their
achievements.” See Gertz v. Robert Welch, Inc., 418 U.S. 323, 342
(1974); see also Curtis Publ’g Co. v. Butts, 388 U.S. 130, 155 (1967)
(distinguishing between a public official and a public figure and
extending New York Times protection to the latter). Dr.
Lovingood’s arguments that he is not a public figure do not
diminish his role as a public official.

App. 49
“[T]he actual malice standard is not satisfied merely
through a showing of ill will or ‘malice’ in the ordinary
sense of the term.” Harte-Hanks Commc’ns, 491 U.S. at
666. Instead, in a defamation action concerning a
public official, the public official must be able to prove
by clear and convincing evidence that the defendant
acted with reckless disregard of the truth. Id.; see also
Cottrell, 975 So. 2d at 333 (citing New York Times, 376
U.S. at 280). A defendant acts with reckless disregard
for the falsity of allegedly defamatory remarks when
the defendant “in fact entertained serious doubts as to
the truth of [its] publication . . . or acted with a ‘high
degree of awareness of . . . probable falsity.’” Masson v.
New Yorker Magazine, Inc., 501 U.S. 496, 510 (1991)
(quoting St. Amant v. Thompson, 390 U.S. 727, 731
(1968) and Garrison v. Louisiana, 379 U.S. 64, 74
(1964)). “The meaning of terms such as ‘actual malice’and, more particularly, ‘reckless disregard’” are “not
readily captured in one infallible definition.” HarteHanks Commc’ns, 491 U.S. at 686 (some internal
quotation marks and citation omitted). “Rather, only
through the course of case-by-case adjudication” may a
court “give content to these otherwise elusive
constitutional standards.” Id.
The United States Supreme Court and the Alabama
Supreme Court have provided some guidance regarding
the nature of the evidence that a public official must
present to prove by clear and convincing evidence that
the defendant knew that information that the
defendant republished about a public official was false
or that the defendant republished the information
about the official in reckless disregard for the truth or
falsity of the information. Extending the rationale of

App. 50
Cottrell to republication, to create a jury question, a
public official must present sufficient evidence that the
defendant knew that the republished information was
fabricated, realized that the information was “so
inherently improbable that only a reckless man would
have put [it] in circulation,” or recognized that the
information came from “a source that the defendant
had obvious reasons to doubt, such as an unverified
anonymous telephone call.” Cottrell, 975 So. 2d at 349
(citations, internal quotation marks, and emphasis
omitted). Per Harte-Hanks Commc’ns, the evidence
upon which a public official relies must show “more
than a departure from reasonably prudent conduct.”
Harte-Hanks Commc’ns, 491 U.S. at 688. Instead, there
must be evidence that indicates that the defendant
“‘entertained serious doubts as to the truth of [the]
publication.’” Harte-Hanks Commc’ns, 491 U.S. at 688
(quoting St. Amant, 390 U.S. at 731). The standard is
subjective. Harte-Hanks Commc’ns, 491 U.S. at 688;
Cottrell, 975 So. 2d at 349.
When, as in this case, the public official’s claim
rests on a failure to investigate theory, the “failure to
investigate before publishing, even when a reasonably
prudent person would have done so, is not sufficient to
establish reckless disregard.” Harte-Hanks Commc’ns,
491 U.S. at 688. Instead, the official must show that
the defendant “purposeful[ly] avoid[ed] [] the truth.” Id.
at 692; see also Cottrell, 975 So. 2d at 349 (“[T]he
failure to investigate does not constitute malice, unless
the failure evidences purposeful avoidance, that is, an
intent to avoid the truth.”) (citations and internal
quotation marks omitted).

App. 51
In Harte-Hanks Commc’ns, the United States
Supreme Court found that evidence of conduct that
amounted to willful ignorance of objective information
that contradicted a source’s charges about a judicial
candidate supported a jury verdict for the candidate
and against the defendant newspaper that published
an article maligning the candidate. The article stated
that the candidate offered jobs and a trip to Florida to
certain individuals who were in a position to discredit
the candidate’s opponent. See Harte-Hanks Commc’ns,
491 U.S. at 660. The Supreme Court found that
evidence that “no one at the newspaper took the time
to listen” to interview tapes that were available to the
newspaper and undermined the source’s charges
against the candidate supported a finding that “the
newspaper’s inaction was a product of a deliberate
decision not to acquire knowledge of facts that might
confirm the probable falsity of [the source’s] charges.”
Id. at 692.
In Harte-Hanks Commc’ns, the Supreme Court
likened the situation before it to the circumstances that
supported a finding of actual malice in Curtis
Publishing Co. v. Butts, 388 U.S. 130 (1967). The
Supreme Court explained:
In Butts the evidence showed that the Saturday
Evening Post had published an accurate account
of an unreliable informant’s false description of
the Georgia athletic director’s purported
agreement to “fix” a college football game.
Although there was reason to question the
informant’s veracity, . . . the editors did not
interview a witness who had the same access to

App. 52
the facts as the informant and did not look at
films that revealed what actually happened at
the game in question. This evidence of an intent
to avoid the truth was not only sufficient to
convince the plurality that there had been an
extreme departure from professional publishing
standards, but it was also sufficient to satisfy
the more demanding New York Times [actual
malice] standard . . . .
Harte-Hanks Commc’ns, 491 U.S. at 692–93. As the
Eleventh Circuit Court of Appeals held in Hunt v.
Liberty Lobby, 720 F.2d 631 (11th Cir. 1983), when a
party has reason to question the neutrality of the
source of its information yet publishes information that
is not “‘hot news,’ that is, information that must be
printed immediately or it will lose its newsworthy
value,” without taking the time to examine available
resources that would permit verification of the
information being published, a jury question exits
regarding the publisher’s intent. 720 F.2d at 645.
Here, there is nothing in the Challenger film that is
“hot news.” The film portrays events that occurred
more than two decades before the BBC made the film.
The evidence, viewed in the light most favorable to Dr.
Lovingood, shows that The Discovery Channel knew
that in the Challenger film, the BBC embellished or
perhaps even fabricated aspects of the actual events for
the film because the film was a docudrama. Rocky
Collins, the executive producer of the film for The
Discovery Channel, watched the film before Discovery
aired the film in the United States. (Doc. 60-7, p. 74).
The first few frames of the film contain the statement,

App. 53
“Some scenes have been created for dramatic
purposes.” (Doc. 60-26, 2:06).
Discovery Channel obtained the film from the BBC
via a five-year “Master First Look, Co-Production and
Licence [sic] Agreement” pursuant to which Discovery
Channel agreed to pay the BBC $22 million annually to
co-produce programming. (Doc. 60-9; see also Doc. 60-1,
¶ 7; Doc. 63, pp. 18–19 n. 1). Although the agreement
gave the BBC “final artistic and editorial control” of
each co-produced program, and although the BBC
expressly warranted that, “to the best of its knowledge
and belief (having exercised due diligence in its
enquiries),” no co-produced program would “defame any
individual or entity,” the agreement also required
Discovery Channel and the BBC to consult “on the form
and content” and “all creative aspects” of each program,
“throughout all phases of production,” and “tak[e] into
account the requirements of [Discovery’s] audience.”
(Doc. 60-9, p. 20, ¶ 15.1; p. 28, ¶ 20.1.8). In addition,
the agreement gave Discovery Channel the limited
right to edit a program before publishing the program
in the United States, and the agreement prohibited
Discovery from using any program produced pursuant
to the agreement “in any manner . . . which is
defamatory or invades the privacy of any person.” (Doc.
60-9, pp. 20-21, ¶¶ 15.5–15.8).
Mr. Collins testified that he relied on the BBC “to
undertake [] diligent research in keeping with the best
standards and [he] relied on them and expected them
to do all of their work.” (Doc. 64-12, p. 17). Yet, Mr.
Collins recognized that as the executive producer of
Discovery’s version of the film, it was his job “to make

App. 54
sure” that the BBC was performing its due diligence.
(See Doc. 64-12, p. 17). According to Mr. Collins, the
BBC had “satisfactory answers” every time he asked
about the potential legal consequences of a given aspect
of the film. (See Doc. 64-12, p. 17). Mr. Collins testified
that he “had absolutely no reason to believe that the
[BBC] did not do [its] job.” (Doc. 64-12, p. 17). 11
Nevertheless, it is undisputed that Mr. Collins had
available to him two resources that he could have used
to verify the accuracy of scenes in the film. He could
have consulted Dr. Feynman’s book. Doing so would
have revealed that engineers gave Dr. Feynman the
Ivory soap estimate of success at Marshall Space Flight
Center, not in a cafeteria; Dr. Lovingood participated
in the conversation; and the discussion concerned the
possibility of main engine failure (a statistic that
NASA’s engineers could calculate and guard against),
not mission failure. Mr. Collins never questioned the
BBC about the scene involving Dr. Lovingood. (Doc.
60-7, pp. 144–45). Mr. Collins only skimmed Dr.
Feynman’s book, so he did not realize that the

11

Discovery Channel argues that Mr. Collins’s efforts were
adequate, and the company offered testimony from James Hirsch
to prove the point. Mr. Hirsch testified that it was customary in
the entertainment industry for Discovery Channel to “rely[] on the
[BBC] to ‘get it right,’ both legally and creatively.” (Doc. 60-28, p.
5). Mr. Hirsch’s professional biography is located at Doc. 60-28, pp.
11–14. Dr. Lovingood filed a motion to exclude Mr. Hirsch’s
testimony on grounds that the testimony does not satisfy the
requirements of Federal Rule of Evidence 702. (Doc. 50). Because
the Court has not relied on Mr. Hirsh’s opinion in reaching its
decision, the Court denies Dr. Lovingood’s motion to strike because
the motion is moot.

App. 55
discussion between Dr. Lovingood and Dr. Feynman
about the probability of a main engine malfunction took
place at Marshall Space Flight Center in Huntsville
rather than before the Presidential Commission. (Doc.
60-7, pp. 146–49). After reading the book, Mr. Collins
acknowledged that there was a “substantial difference”
between the book’s depiction of the encounter between
Dr. Feynman and Dr. Lovingood and the film’s
depiction of the event. (Doc. 60-7, pp. 148–49). There is
a transcript of Dr. Lovingood’s testimony before the
Presidential Commission. (Doc. 60-6, pp. 91–92). There
is no evidence that Mr. Collins reviewed that transcript
to determine whether the BBC’s portrayal of Dr.
Lovingood’s testimony was accurate. In short, Mr.
Collins made virtually no independent effort to
determine whether the BBC accurately portrayed Dr.
Lovingood in the docudrama.
Although Discovery Channel clearly had the means
and the opportunity to be more proactive in its
monitoring of the content of the Challenger film, and a
jury potentially could infer from the evidence that
Discovery Channel willfully avoided the opportunity,
the Court finds on the record in this particular case
that the evidence that Dr. Lovingood has offered does
not satisfy the “elusive constitutional standard” for
actual malice. A number of circumstances compel the
Court’s conclusion.
First, unlike Harte-Hanks Commc’ns and Hunt,
cases in which the United States Supreme Court and
the Eleventh Circuit Court of Appeals found that trial
courts properly allowed juries to resolve factual
disputes concerning the defendant publisher’s intent,

App. 56
this case does not involve a newspaper article and a
reporter’s potentially unreliable sources. This case
concerns a docudrama. The “drama” aspect of the film
presupposes that aspects of the historical event are
fictionalized in the film for entertainment purposes.
See Davis v. Costa-Gavras, 654 F.Supp. 653, 658
(S.D.N.Y. 1987) (explaining that the docudrama genre
“utilize[s] simulated dialogue, composite characters,
and a telescoping of events occurring over a period into
a composite scene or scenes” whereas a documentary is
“a nonfictional story or series of historical events
portrayed in their actual location; a film of real people
and real events as they occur. A documentary
maintains strict fidelity to fact.”). Thus, changing the
location in which a conversation took place and
reducing the number of people involved in the
conversation is not the sort of false information that a
docudrama’s co-producer would be expected to detect
and identify as potentially libelous material.
The falsification of sworn testimony is another
matter. Such conduct has a significant potential to
damage the reputation of the individual depicted in the
historical dramatization. Under certain circumstances,
a jury question concerning actual malice could exist
where a defendant published—or republished—a false
reenactment of sworn testimony where the defendant
had available to it the means to verify the accuracy of
the dramatic depiction of the testimony but willfully or
recklessly disregarded the opportunity.
In this case though, there is nothing so improbable
in the scene of Dr. Lovingood’s testimony before the
Presidential Commission that would have prompted

App. 57
Mr. Collins to obtain a transcript of the hearing to
investigate the accuracy of the scene. Although it is
abundantly clear to Dr. Lovingood and to his colleagues
from NASA that the scene contains false information,
there is nothing that would prompt an observer lacking
Dr. Lovingood’s expertise to recognize the significant
engineering distinction between main engine failure
and mission failure. The analysis is not altered by the
fact that Mr. Collins now acknowledges in retrospect
and in light of this litigation that the statements
attributed to Dr. Lovingood in the Challenger film are
inaccurate because the record contains no evidence that
indicates that the distinction was discernible when Mr.
Collins first reviewed the movie. And unlike the
evidence in Harte-Hanks Commc’ns and Hunt that
suggested that the reporters’ sources were unreliable,
there is no evidence in the record here that the BBC is
not a reputable producer of television programs and
movies. Therefore, there is no evidence from which
jurors could reasonably infer that the Discovery
defendants had reason to doubt the accuracy of the
scenes in the Challenger film or that the defendants’
failure to do more to investigate the accuracy of the two
scenes at issue evidences “an intent to avoid the truth.”
See p. 17, above. The evidence in the record may rise to
the level of negligence, but it does not go further.
Consequently, the Discovery defendants are entitled
to judgment as a matter of law on Dr. Lovingood’s
defamation claim.

App. 58
B. Dr. Lovingood’s false light invasion of
privacy claim
To be subject to liability for the tort of false light
invasion of privacy, a defendant must have “knowledge
of or act[] in reckless disregard as to the falsity of the
publicized matter and the false light in which the other
would be placed.” Ex parte Bole, 103 So. 3d at 51
(citations and internal quotation marks omitted).
Because, as discussed above, Dr. Lovingood has not
provided evidence that shows that Discovery acted
recklessly when it broadcast “The Challenger Disaster,”
Discovery is entitled to judgment as a matter of law on
Dr. Lovingood’s false light invasion of privacy claim.
See Smith v. Huntsville Times, Co., Inc., 888 So. 2d
492, 496 n. 1 (Ala. 2004) (explaining that the “same
standard applies to all of [the plaintiff’s] claims,
regardless of whether they are stated as ‘defamation’ or
‘false light invasion of privacy”).
IV.

CONCLUSION

For the reasons discussed above, the Court
GRANTS the Discovery defendants’ motion for
summary judgment with respect to Dr. Lovingood’s
claims for defamation and false light invasion of
privacy. (Doc. 62). The Court will enter a separate
order consistent with this memorandum opinion.
DONE and ORDERED this August 1, 2017.
s/______________________________
MADELINE HUGHES HAIKALA
UNITED STATES DISTRICT JUDGE

App. 59

APPENDIX D
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ALABAMA
NORTHEASTERN DIVISION
Case No. 5:14-cv-00684-MHH
[Filed August 1, 2017]
____________________________________
JUDSON A. LOVINGOOD,
)
)
Plaintiff,
)
)
v.
)
)
DISCOVERY
)
COMMUNICATIONS, INC., et al.,
)
)
Defendants.
)
___________________________________ )
ORDER
In accordance with the memorandum opinion
entered contemporaneously with this order (Doc. 74),
the Court DISMISSES WITH PREJUDICE Dr.
Lovingood’s complaint. (Doc. 1-1). The Court asks the
Clerk to please close the file.
DONE and ORDERED this August 1, 2017.
s/______________________________
MADELINE HUGHES HAIKALA
UNITED STATES DISTRICT JUDGE

App. 60

APPENDIX E
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ALABAMA
NORTHEASTERN DIVISION
Case No. 5:14-cv-00684-MHH
[Filed September 30, 2015]
____________________________________
JUDSON A. LOVINGOOD,
)
)
Plaintiff,
)
)
v.
)
)
DISCOVERY
)
COMMUNICATIONS, INC., et al.,
)
)
Defendants.
)
___________________________________ )
MEMORANDUM OPINION
“The Challenger Disaster,” a popular 2013 film,
chronicled the events leading up to the tragic crash
that destroyed The Challenger spacecraft in 1986 and
killed its entire crew. A scene in the film depicts
Judson Lovingood, a NASA engineer, testifying in front
of the Presidential Commission that investigated the
disaster. Mr. Lovingood contends that the film defames
him and paints him in a false light. Mr. Lovingood
brought this defamation lawsuit against the defendants

App. 61
Discovery Communications Inc., The Science Channel,
The Discovery Channel, the British Broadcasting
Corporation, The Open University, and Kate Gartside
for their roles in writing, producing, and broadcasting
the film.1 The Discovery Channel, Discovery
Communications, Inc., and the Science Channel
(hereinafter “Discovery”) have jointly filed a motion to
dismiss the complaint for failure to state a claim. (Doc.
6). BBC has filed a motion to dismiss for lack of
personal jurisdiction and failure to state a claim (Doc.
14), and Kate Gartside has filed a motion to dismiss for
lack of personal jurisdiction and insufficient service of
process (Doc. 32). For the reasons discussed, the Court
denies Discovery’s motion to dismiss, grants BBC’s
motion to dismiss, and grants Ms. Gartside’s motion to
dismiss.
I.

STANDARDS OF REVIEW
A.

12(b)(6)

Rule 12(b)(6) enables a defendant to move to
dismiss a complaint for “failure to state a claim upon
which relief can be granted.” Fed. R. Civ. P. 12(b)(6).
Pursuant to Rule 8(a)(2), a complaint must contain, “a
short and plain statement of the claim showing that
the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2).
“Generally, to survive a [Rule 12(b)(6)] motion to
dismiss and meet the requirement of Fed. R. Civ. P.
8(a)(2), a complaint need not contain ‘detailed factual
1

During the oral argument on defendant The Open University’s
motion to dismiss, the plaintiff conceded that The Open University
was due to be stricken as a defendant in this action, and the Court
granted The Open University’s motion to dismiss. (Doc. 30).

App. 62
allegations,’ but rather ‘only enough facts to state a
claim to relief that is plausible on its face.’” Maledy v.
City of Enterprise, 2012 WL 1028176, at *1 (M.D. Ala.
Mar. 26, 2012) (quoting Bell Atl. Corp. v. Twombly, 550
U.S. 544, 555, 570 (2007)). “Specific facts are not
necessary; the statement needs only ‘give the defendant
fair notice of what the . . . claim is and the grounds
upon which it rests.’” Erickson v. Pardus, 551 U.S. 89,
93 (2007) (quoting Twombly, 550 U.S. at 555).
In deciding a Rule 12(b)(6) motion to dismiss, a
court must view the allegations in a complaint in the
light most favorable to the non-moving party. Watts v.
Fla. Int’l Univ., 495 F.3d 1289, 1295 (11th Cir. 2007).
A court must accept well-pleaded facts as true.
Grossman v. Nationsbank, N.A., 225 F.3d 1228, 1231
(11th Cir. 2000).
B.

12(b)(2)

“A plaintiff seeking to establish personal
jurisdiction over a nonresident defendant ‘bears the
initial burden of alleging in the complaint sufficient
facts to make out a prima facie case of jurisdiction.’”
Louis Vuitton Malletier, S.A. v. Mosseri, 736 F.3d 1339,
1355 (11th Cir. 2013) (quoting United Techs. Corp. v.
Mazer, 556 F.3d 1260, 1274 (11th Cir. 2009)). “Where,
as here, the defendant challenges jurisdiction by
submitting affidavit evidence in support of its position,
the burden traditionally shifts back to the plaintiff to
produce evidence supporting jurisdiction.” Mazer, 556
F.3d at 1274 (internal quotation marks and citations
omitted). To survive a motion to dismiss for lack of
personal jurisdiction, the non-moving party must
“present[] enough evidence to withstand a motion for a

App. 63
directed verdict.” Stubbs v. Wyndham Nassau Resort &
Crystal Palace Casino, 447 F.3d 1357, 1360 (11th Cir.
2006). A motion for a directed verdict must be denied
where “there is substantial evidence opposed to the
motion such that reasonable people, in the exercise of
impartial judgment, might reach differing conclusions.”
Carter v. City of Miami, 870 F.2d 578, 581 (11th Cir.
1989). Although defendants may submit affidavits in
support of 12(b)(2) motions, the Court must construe
all reasonable inferences and factual conflicts in favor
of the non-moving party. Stubbs, 447 F.3d at 1360.
II.

FACTUAL
AND
BACKGROUND

PROCEDURAL

Launched in 1986, the Space Shuttle Challenger
came apart shortly after takeoff in a crash that killed
the shuttle’s seven crew members. (Doc. 1-1, ¶ 2).
Plaintiff Judson Lovingood was working as the
NASA-MSFC Shuttle Projects Office Deputy Manager
when the Challenger disaster occurred. (Doc. 1-1, ¶ 1).
President Ronald Reagan established a Presidential
Commission to investigate the accident. (Doc. 1-1, ¶ 2).
The Commission completed its investigation and
released a report in June 1986. (Doc. 1-1, ¶ 2). Dr.
Richard P. Feynman, a Nobel Laureate and Cal Tech
physics professor, served on the Commission. (Doc. 1-1,
¶ 2). Dr. Feynman wrote a book about the experience
entitled “What Do You Care What Other People Think”
that was published in 1988. (Doc. 1-1, ¶ 2).
Dr. Feynman’s book provided the basis for a film
entitled “The Challenger Disaster.” The film debuted
on The Science Channel and The Discovery Channel in
the United States in 2013. (Doc. 1-1, ¶¶ 3-4). The film

App. 64
was broadcast to approximately 2 million “premiere
viewers” and 5 million “unique viewers,” making it one
of the most watched programs in the history of the
Science Channel. (Doc. 1-1, ¶ 3). The film begins with
the following message displayed in bold print: “THIS IS
A TRUE STORY.” (Doc. 1-1, ¶ 4). The introductory text
indicates that the film is based on Dr. Feynman’s book.
(Id.). Like the book, the film concerns the events
leading up to the Challenger disaster. (Doc. 1-1, ¶¶ 2,
4). The film features actors playing the roles of Dr.
Feynman and Judson Lovingood. (Doc. 1-1, ¶ 3).
In his complaint, Mr. Lovingood alleges that
“[p]ertinent and significant aspects of [the film] are not
true . . . and are, in fact, false and defamatory.” (Doc.
1-1, ¶ 4). Mr. Lovingood asserts that the writers and
producers of The Challenger Disaster sacrificed the
truth and defamed Mr. Lovingood in an effort to make
a more dramatic film. (Doc. 1-1, ¶ 4). The film shows
NASA engineers assessing the probability of total
mission failure and loss of the entire crew, when in
reality, the engineers had assessed failure probabilities
only with respect to “the separate components of [the]
complex shuttle.” (Doc. 1-1, ¶ 6). The film “failed to
make the very significant distinction among probability
estimates for [the various components] . . . and twisted
evaluations that NASA had determined for the
components into a false picture of probability of total
mission failure with loss of life to the crew.” (Doc. 1-1,
¶ 6).
One sequence of The Challenger Disaster shows the
actor playing Mr. Lovingood and another NASA
employee testifying before the Presidential

App. 65
Commission. (Doc. 1-1, ¶ 7). Dr. Feynman asks the
other NASA employee: “Can you remind me what
NASA calculates the probability of shuttle failure to
be? Failure meaning the loss of vehicle and the death
of the entire crew.” (Doc. 1-1, ¶ 7). After Dr. Feynman’s
question, an actor playing another member of the
Presidential Commission asks Mr. Lovingood to answer
the question, and Mr. Lovingood responds that the
probability is 1 in 100,000. (Doc. 1-1, ¶ 7). Dr. Feynman
responds, stating that Mr. Lovingood’s calculation is “a
wish,” rather than a true estimate, and that NASA’s
own engineers estimated the probability of failure to be
close to 1 in 200. (Doc. 1-1, ¶ 7). The sequence’s “clear
statement and depiction was that Lovingood had lied
about the probability of total failure being 1 in 100,000
when NASA’s own engineers had said it was 1 in 200.”
(Doc. 1-1, ¶ 7, p. 7).
Mr. Lovingood alleges that he never testified in
person before the Commission or offered Dr. Feynamn
an estimate of total shuttle failure. (Doc. 1-1, ¶ 7). Mr.
Lovingood also alleges that no engineer ever calculated
the probability of total shuttle failure at 1 in 200 and
that Dr. Feynman’s book correctly described an
engineer offering a 1-in-200 probability assessment
when asked about the failure of a particular
component. (Doc. 1-1, ¶ 7). Mr. Lovingood contends
that the film paints him in a false light because the
film suggests that “NASA and Lovingood knew this
made-up [1-in-200] calculation before th[e] terrible
Challenger disaster and ignored it” (Doc. 1-1, ¶ 7, p. 9),
“present[ing] a danger to the astronauts who were not
told of such a high probability of failure.” (Doc. 1-1, ¶ 7,
p. 8).

App. 66
Mr. Lovingood alleges that Discovery
Communications, Inc. and BBC Films jointly produced
The Challenger Disaster, Kate Gartside wrote the
script for the film, and The Discovery Channel and The
Science Channel later broadcast the film. (Doc. 1-1,
¶ 8). Mr. Lovingood asserts defamation and invasion of
privacy claims against all of the defendants. (Doc. 1-1,
¶ 10). All of the defendants ask the Court to dismiss
Mr. Lovingood’s claims. (Docs. 6, 14, 32). The parties
have briefed the motions. (Docs. 7, 10, 12, 15, 21, 29,
33). On this record, the Court considers the defendants’
motions.
III.

ANALYSIS

A.

Discovery’s 12(b)(6) Motion to Dismiss
1. Defamation Claim

To establish a prima facie case of defamation under
Alabama law, “a plaintiff must show: [1] that the
defendant was at least negligent [2] in publishing [3] a
false and defamatory statement to another
[4] concerning the plaintiff, [5] which is either
actionable without having to prove special harm
(actionable per se) or actionable upon allegations and
proof of special harm (actionable per quod).” Ex Parte
Bole, 103 So. 3d 40, 51 (Ala. 2012) (quoting Ex parte
Crawford Broad. Co., 904 So. 2d 221. 225 (Ala. 2004)
(emphasis and internal quotation marks omitted)).
Discovery argues that Mr. Lovingood’s complaint
fails to state a defamation claim because: (1) the
statements made in the film are not “of and
concerning” Mr. Lovingood; (2) the statements are

App. 67
substantially true; (3) the statements are not
defamatory as a matter of law; and (4) Mr. Lovingood
did not plead special damages. (Doc. 7, pp. 6, 11, 19,
22). Discovery also argues that Mr. Lovingood’s claim
for punitive damages is barred because he failed to
send a written demand for a retraction before filing
this lawsuit. (Doc. 7, p. 24). The Court addresses these
arguments in turn.
i.
With respect to Discovery’s argument that
statements in the film are not “of and concerning” Mr.
Lovingood, the Challenger Disaster film depicted Mr.
Lovingood testifying under oath before the Presidential
Commission. The film identifies Mr. Lovingood by
name. That Mr. Lovingood testified about NASA’s work
does not mean the statements in the film concern only
NASA. The film suggests that Mr. Lovingood lied or
attempted to cover up a “high probability [of] failure by
giving a 1 in 100,000 probability of total mission
failure.” (Doc. 1-1, p. 8). The suggestion that Mr.
Lovingood lied or at least grossly understated the
probability-of-failure estimate impugns not only the
organization for which Mr. Lovingood worked. The
statements concern Mr. Lovingood as an individual.
Discovery relies on New York Times v. Sullivan, 376
U.S. 254 (1964) and Rosenblatt v. Baer, 383 U.S. 75
(1966) to argue that the statements in the film concern
only NASA as an organization, not Mr. Lovingood (Doc.
7, p. 8); however, those cases suggest the opposite
result. In Sullivan, the Supreme Court held that a city
commissioner could not recover under a defamation
theory when the allegedly defamatory statements were

App. 68
made solely about the police department that the city
commissioner helped oversee. 376 U.S. at 292. The
alleged defamation in Rosenblatt concerned criticism of
a government agency and included no specific reference
to the plaintiff. 383 U.S. at 80-83. Discovery’s reliance
on these cases is unpersuasive because the publications
at issue in Sullivan and Rosenblatt allegedly defamed
the plaintiff organizations and did not identify the
plaintiffs by name.
In this case, the alleged defamation is personal to
Mr. Lovingood. Mr. Lovingood has pleaded that the
statements in the film were “of and concerning” him.
The film portrays Mr. Lovingood—identified by name
while under oath—underrepresenting NASA’s
probability-of-failure estimates for the Challenger
mission, thereby suggesting that Mr. Lovingood
attempted to manipulate the Commission’s
investigation. (Doc. 7-2, pp. 22-23). Viewing the
allegations in the complaint in the light most favorable
to Mr. Lovingood, the Court finds that Mr. Lovingood
has alleged adequately that the statements at issue
concerned him.
ii.
As for Discovery’s argument that the statements at
issue are substantially true, “[t]ruth is a ‘complete and
absolute defense’ to defamation.” Ex Parte Bole, 103
So. 3d at 51 (quoting Battles v. Ford Motor Credit Co.,
597 So. 2d 688, 692 (Ala. 1992)). A “statement is not
considered false unless it ‘would have a different effect
on the mind of the reader from that which the pleaded
truth would have produced.’” Masson v. New Yorker
Magazine, Inc., 501 U.S. 496, 516 (1991). Statements

App. 69
that are “substantially correct,” meaning that they are
true in all material respects, are not actionable. Drill
Parts & Service Co. v. Joy Mfg. Co., 619 So. 2d 1280,
1290 (Ala. 1993); Kirkpatrick v. Journal Pub. Co., 97
So. 58, 59 (Ala. 1923). “In actions for libel or slander,
the defendant ultimately bears the burden of showing
that the defamatory words are true.” Crutcher v.
Wendy’s of North Alabama, Inc., 857 So. 2d 82, 95 (Ala.
2003) (citing Brothers v. Brothers, 94 So. 175 (Ala.
1922)).
Mr. Lovingood alleges in his complaint that the
statements in the film are not substantially true. Mr.
Lovingood asserts that he did not make the statements
attributed to him in the film and that the statements
were not substantially true in material
respects—namely, that he never lowballed the
probability of total-mission failure to the Commission
or to NASA engineers. (Doc. 1-1, p. 9). The film,
however, depicts Mr. Lovingood doing just that. (See
Doc. 7-2, pp. 22-23). The cases cited by Discovery—in
which courts upheld grants of summary judgment to
various defendants on the “substantial truth”
issue—are unpersuasive, particularly with respect to
the pending 12(b)(6) motion. In context, the statements
that Mr. Lovingood describes in his complaint contain
more than a minor inaccuracy. Rather, the statements
suggest that Mr. Lovingood misled the Presidential
Commission, officials at NASA, and the astronauts
aboard the Challenger about the risks involved in the
mission. Thus, the Court finds that Mr. Lovingood has
adequately pled that the statements at issue are not
substantially true.

App. 70
iii.
Turning to Discovery’s argument that the
statements at issue are not defamatory as a matter of
law, the Court must consider whether the statements
are “reasonably capable of defamatory meaning.” Clark
v. America’s First Credit Union, 585 So. 2d 1367, 1370
(Ala. 1991) (citing Harris v. School Annual Pub. Co.,
466 So. 2d 963, 964-65 (Ala. 1985)). A communication
is defamatory if it “‘[so] harms the reputation of
another as to lower him in the estimation of the
community or to deter third persons from associating
or dealing with him.’” Clark, 585 So. 2d at 1370
(quoting Harris, 466 So. 2d at 964).
The statements in question are reasonably capable
of defamatory meaning. Mr. Lovingood states in his
complaint: “As a proximate consequence [of the
statements], Plaintiff has had his character and
reputation impaired and made the subject of ridicule,
contempt and scorn in the scientific community, his
own community, and among the viewers of the movie
throughout the United States and abroad due to the
tragic disaster of the Challenger and the false
characterization of Plaintiff as a weak, uninformed,
manager who callously ignored engineers reports at
NASA that endangered the lives of astronauts in the
shuttle program.” (Doc. 1-1, p. 11). While the disputed
portion of the film might be susceptible to multiple
meanings, the defamatory meaning that Mr. Lovingood
ascribes to The Challenger Disaster film is a
reasonable, plausible one. Taking the alleged
statements in the light most favorable to Mr.

App. 71
Lovingood, the Court finds that the statements are
reasonably capable of a defamatory meaning
iv.
Discovery argues that because the published
statements require additional facts to understand why
they might be defamatory, Mr. Lovingood’s failure to
plead special damages is fatal. Mr. Lovingood counters
by arguing that the statements are actionable per se
and that Alabama law presumes damages for false,
defamatory statements. (Doc. 10, p. 21).
“In cases of libel, if the language used exposes the
plaintiff to public ridicule or contempt, though it does
not embody an accusation of crime, the law presumes
damage to the reputation, and pronounces it actionable
per se.” Butler v. Town of Argo, 871 So. 2d 1, 16 (Ala.
2003) (quoting Ceravolo v. Brown, 364 So. 2d 1155,
1156-57 (Ala. 1978)). A statement that is libelous per
quod is not libelous on its face and instead is actionable
only by reference to “extrinsic facts showing
circumstances under which” the statement was
published. Cottrell v. Nat’l Coll. Athletic Ass’n, 975
So. 2d 306, 346 (Ala. 2007). “In the absence of language
that is defamatory per se, a plaintiff must allege and
prove special damages resulting from the defamation.”
Clark v. America’s First Credit Union, 585 So. 2d 1367,
1371 (Ala. 1991).
Mr. Lovingood has adequately pleaded that the
statements in question were libelous per se, and thus,
he does not have to plead special damages. The film
depicts Mr. Lovingood giving false, sworn testimony to
a Presidential Commission regarding the probability of

App. 72
a total-launch failure. As stated in the complaint, such
statements have directly exposed Mr. Lovingood to
public ridicule. Additionally, viewing the alleged facts
in the light most favorable to Mr. Lovingood, the
depicted false, sworn testimony to the Commission is
tantamount to the accusation of a crime—namely,
perjury. The context of the statements in the film
provides additional support for this view. In the film, a
member of the Presidential Commission, responded to
Mr. Lovingood’s assessment by stating: “One in two
hundred. Wow. That’s not what the astronauts were
aware of.” (Doc. 7-2, p. 23). No extrinsic information or
inferences are necessary to understand the defamatory
nature of these statements.
Because the film’s statements expose Mr. Lovingood
to public ridicule and contempt and are tantamount to
an accusation of crime, Mr. Lovingood has pleaded libel
per se. Thus, Mr. Lovingood is not required to plead
special damages.
v.
Discovery argues that Mr. Lovingood is barred from
recovering punitive damages because he failed to allege
that he sent Discovery a request for a retraction.
Alabama Code § 6-5-186 provides that:
punitive damages shall not be recovered in any
action for libel on account of any publication
unless . . . (2) it shall be proved that five days
before the commencement of the action the
plaintiff shall have made written demand upon
the defendant for a public retraction of the
charge or matter published; and the defendant

App. 73
shall have failed or refused to publish within
five days, in as prominent and public a place or
manner as the charge or matter published
occupied, a full and fair retraction of such charge
or matter.
Mr. Lovingood states in the complaint: “Plaintiff
wrote the Science Channel on November 19, 2013, to
complain about the falsehoods in the movie. No
response was made to this letter.” (Doc. 1-1, ¶ 11).
During discovery, facts may come to light that establish
that Mr. Lovingood failed to comply with the
requirements of section 6-5-186; but construing the
complaint in the light most favorable to Mr. Lovingood,
the complaint indicates that he complied. Mr.
Lovingood’s complaint “about the falsehoods in the
movie” plausibly may have included a demand for
public retraction. That Discovery did not respond to
Mr. Lovingood’s letter suggests that Discovery did not
publish a retraction. If evidence reveals that Mr.
Lovingood failed to send the retraction letter, then he
will not be able to recover punitive damages. For now,
however, Mr. Lovingood has pleaded sufficient facts for
his punitive damages claim to go forward.
2. “False Light” Invasion of Privacy
Alabama has adopted the following definition for
“false light” invasion of privacy:
One who gives publicity to a matter concerning
another that places the other before the public in
a false light is subject to liability to the other for
invasion of his privacy, if (a) the false light in
which the other was placed would be highly

App. 74
offensive to a reasonable person, and (b) the
actor had knowledge of or acted in reckless
disregard as to the falsity of the publicized
matter and the false light in which the other
would be placed.
Butler, 871 So. 2d at 12 (quoting Restatement (Second)
of Torts § 652E (1977)). “[U]nlike defamation, truth is
not an affirmative defense to a false-light claim; rather,
‘falsity’ is an element of the plaintiff’s claim, on which
the plaintiff bears the burden of proof.” Regions Bank
v. Plott, 897 So. 2d 239, 244 (Ala. 2004) (emphasis
omitted).
Discovery contends that the Court should dismiss
Mr. Lovingood’s false light claim because the
statements in the film were substantially true and did
not concern Mr. Lovingood. (Doc. 7, pp. 25-26). The
Court already has ruled with respect to Mr.
Lovingood’s defamation claim that Mr. Lovingood has
adequately pleaded falsity and that the alleged
defamatory statements concern Mr. Lovingood. Mr.
Lovingood’s complaint also satisfies the remaining
elements of false light. The false light in which Mr.
Lovingood was placed—that is, misrepresenting crucial
facts to the Commission and appearing to cover up
details of the launch that could have saved the crew
members’ lives—would certainly be highly offensive to
a reasonable person. Additionally, the allegations in
the complaint, if proven, establish that Discovery was
aware of both the publicized matter’s false nature and
the false light in which Mr. Lovingood would be placed.
Thus, the Court denies Discovery’s motion to dismiss
the false light claim.

App. 75
B.

BBC’s and Kate Gartside’s 12(b)(2)
Motions to Dismiss for Lack of
Personal Jurisdiction

In determining whether to exercise personal
jurisdiction over a foreign defendant, a federal court
must consider (1) whether the exercise of jurisdiction is
permitted by the state long-arm statute, and
(2) whether the exercise of jurisdiction would violate
the Due Process Clause of the Fourteenth Amendment
to the United States Constitution. Mazer, 556 F.3d at
1274. Here, the two inquiries merge because
“Alabama’s long-arm statute permits service of process
to the fullest extent constitutionally permissible.” Sloss
Indus. Corp. v. Eurison, 488 F.3d 922, 925 (11th Cir.
2007) (citing Ala. R. Civ. P. 4.2(b)).
For a court to satisfy due process in exercising
personal jurisdiction over an out-of-state defendant, the
defendant must have “certain minimum contacts with
the [forum] State such that the maintenance of the suit
does not offend traditional notions of fair play and
substantial justice.” Daimler AG v. Bauman, 134 S. Ct.
746, 754 (2014) (quoting International Shoe Co. v.
Washington, 326 U.S. 310, 316 (1945)) (internal
quotation marks omitted). International Shoe’s
conception of “fair play and substantial justice” gave
rise to two categories of personal jurisdiction:
(1) general jurisdiction, and (2) specific jurisdiction.
Daimler, 134 S. Ct. at 754. General jurisdiction “refers
to the power of a court in the forum to adjudicate any
cause of action involving a particular defendant,
irrespective of where the cause of action arose.”
Oldfield v. Pueblo De Bahia Lora, S.A., 558 F.3d 1210,

App. 76
1220 n.27 (11th Cir. 2009). Specific jurisdiction “refers
to jurisdiction over causes of action arising from or
related to a defendant’s actions within the forum.” Id.
1. General Jurisdiction
“A court may assert general jurisdiction over foreign
(sister-state or foreign-country) corporations to hear
any and all claims against them when their affiliations
with the State are so ‘continuous and systematic’ as to
render them essentially at home in the forum State.”
Goodyear Dunlop Tires Operations, S.A. v. Brown, 131
S. Ct. 2846, 2851 (2011). Outside of exceptional cases,
a corporation is considered “at home” in either its place
of incorporation or its principal place of business.
Daimler, 134 S. Ct. at 760, 761 n. 19. “For an
individual, the paradigm forum for the exercise of
general jurisdiction is the individual’s domicile.”
Goodyear, 131 S. Ct. at 2853.
2. Specific Jurisdiction
In specific jurisdiction cases, the Eleventh Circuit
applies a “three-part due process test, which examines:
“(1) whether the plaintiff’s claims ‘arise out of or relate
to’ at least one of the defendant’s contacts with the
forum; (2) whether the nonresident defendant
‘purposefully availed’ himself of the privilege of
conducting activities within the forum state, thus
invoking the benefit of the forum state’s laws; and
(3) whether the exercise of personal jurisdiction
comports with ‘traditional notions of fair play and
substantial justice.’” Louis Vuitton, 736 F.3d at 1355
(citations omitted). The plaintiff bears the burden of
establishing the first two prongs, after which the

App. 77
burden shifts to the defendant to make a “compelling
case” that the exercise of jurisdiction would violate
traditional notions of fair play and substantial justice.
Id. (quoting Diamond Crystal Brands, Inc. v. Food
Movers Int’l, Inc., 593 F.3d 1249, 1267 (11th Cir.
2010)).
As to the first prong, the Court’s “inquiry must focus
on the direct causal relationship between the
defendant, the forum, and the litigation.” Louis
Vuitton, 736 F.3d at 1355-56. As to the second prong,
the Eleventh Circuit has two applicable tests in
intentional tort cases. Id. at 1356. First, the Eleventh
Circuit may apply the “effects test,” which the Supreme
Court articulated in Calder v. Jones, 465 U.S. 783
(1984). Under the effects test, a single tortious act can
establish purposeful availment, without regard to
whether the defendant had any other contacts with the
forum state, if the tort “(1) was intentional; (2) was
aimed at the forum state; and (3) caused harm that the
defendant should have anticipated would be suffered in
the forum state.” Id. at 1356 (internal quotation marks
omitted). Second, the Eleventh Circuit may apply the
traditional minimum contacts test for purposeful
availment, which asks whether the defendant’s
contacts: “(1) are related to the plaintiff’s cause of
action; (2) involve some act by which the defendant
purposefully availed himself of the privileges of doing
business within the forum; and (3) are such that the
defendant should reasonably anticipate being haled
into court in the forum.” Id. at 1357-58 (citing S.E.C. v.
Carillo, 115 F.3d 1540, 1542 (11th Cir. 1997)).

App. 78
3. BBC’s Motion to Dismiss
Mr. Lovingood’s complaint does not allege sufficient
facts to make out a prima facie case of personal
jurisdiction over BBC. The complaint’s only references
to BBC state that BBC helped produce, and retained
the copyright for, the film at issue. (Doc. 1-1, pp. 10-11).
The complaint contains no facts suggesting that BBC
is “essentially at home” in Alabama or that BBC has
had any contacts with Alabama, let alone “minimum”
contacts. Notwithstanding Mr. Lovingood’s failure to
meet his initial burden of establishing jurisdiction over
BBC, BBC has submitted affidavit evidence in support
of its position. (Docs. 15-1, 15-2). Mr. Lovingood has not
submitted evidence in response to BBC’s affidavits.
The Court may not exercise general personal
jurisdiction over BBC. BBC is not incorporated in
Alabama, and it does not have its principal place of
business in Alabama. (Doc. 15-1, ¶¶ 2, 4). In fact, BBC
does not have any business offices in Alabama. (Doc.
15-1, ¶ 5). Mr. Lovingood’s basis for asking the Court to
exercise general jurisdiction over BBC is that BBC
distributes its World Service radio station over the
SiriusXM Satellite Radio service. (Doc. 21, p. 3 n.2).
Mr. Lovingood explains that “it would not be
unreasonable to assume that SiriusXM has tens of
thousands of subscribers in Alabama alone.” (Doc. 21,
p. 3 n.2). However, broadcasting a program over
satellite radio is not a sufficient contact to render BBC
“essentially at home” in a state that is neither its place
of incorporation nor its principal place of business. The
Supreme Court has made clear that “continuous
activity of some sorts within a state is not enough to

App. 79
support the demand that the corporation be amenable
to suits unrelated to that activity.” Daimler, 134 S. Ct.
at 757 (quoting International Shoe, 326 U.S. at 318). To
hold such would subject BBC to general jurisdiction in
all fifty states, which is incompatible with the Supreme
Court’s decisions in the area of general jurisdiction.
See, e.g., Goodyear, 131 S. Ct. at 2856-57. Because
BBC’s contacts with Alabama are not so “continuous
and systematic” so as to render it “essentially at home”
in Alabama, the Court may not exercise general
personal jurisdiction over BBC.
Additionally, the Court may not exercise specific
personal jurisdiction over BBC. BBC has not
purposefully availed itself of the privilege of conducting
activities in Alabama. Applying the effects test, Mr.
Lovingood fails to establish the second and third
factors because BBC’s alleged torts were not directed at
Alabama and did not cause a harm that BBC should
have anticipated would be suffered in Alabama. The
record indicates that BBC did not broadcast the film in
the United States; rather, BBC’s television broadcast
of the film aired only in the United Kingdom. (Doc.
15-1, ¶¶ 13-14). If BBC’s broadcast of the film did reach
viewers in the United States—or more specifically, in
Alabama—it was not the product of any purposeful or
intentional act on BBC’s part.
Mr. Lovingood also fails to satisfy the minimum
contacts test. BBC made two phone calls to individuals
in Alabama during the production of The Challenger
Disaster film to “obtain some background information
from [The Marshall Space Flight Center].” (Doc. 15-2,
¶ 4). The two phone calls—both of which were

App. 80
unrelated to Mr. Lovingood—are too attenuated to
warrant the exercise of specific jurisdiction. See, e.g.,
Walden, 134 S. Ct. at 1123 (“Due process requires that
a defendant be haled into court in a forum State based
on his own affiliation with the State, not based on the
random, fortuitous, or attenuated contacts he makes by
interacting with other persons affiliated with the
State.”) (internal quotation marks omitted).
Relying on Calder, Mr. Lovingood argues that BBC’s
intentional torts occurred in Alabama, giving BBC fair
notice that it might be haled into an Alabama court.
(Doc. 21, p. 8). However, the defendants’ contacts with
the forum state in Calder were far greater than BBC’s
contacts with Alabama. In Calder, the defendants
made multiple phone calls to California sources while
writing a story about a California citizen’s activities in
California. 465 U.S. at 788-89. In Calder, “California
[was] the focal point both of the story and of the harm
suffered.” Id. at 789. Alabama was in no sense a focal
point of BBC’s part in writing the script for and
producing the film. The film depicts activities that
occurred almost entirely outside of Alabama, including
the statements in controversy. As BBC points out, BBC
had no reason to know that any of the persons depicted
in the film live or work in Alabama. (Doc. 29, p. 11).
BBC did not avail itself of any privileges of doing
business within Alabama; and in fact, the record
indicates that BBC did not do any business within
Alabama. Given the lack of evidence indicating that
BBC purposefully directed activity toward Alabama,
the Court may not exercise specific jurisdiction over
BBC. The Court will grant BBC’s motion to dismiss.

App. 81
4. Kate Gartside’s Motion to Dismiss
Ms. Gartside argues that the Court does not have
personal jurisdiction over her because she lacks
sufficient contacts with Alabama. (Doc. 33). According
to Ms. Gartside’s affidavit, Ms. Gartside is a resident of
London, England, and she has had no direct contact
with Alabama while writing the script for the film or
otherwise. (Doc. 33-1, pp. 2-4). Mr. Lovingood did not
file a response to Ms. Gartside’s motion, much less
provide substantial evidence that could withstand a
motion for a directed verdict. See, e.g., Carter, 870 F.2d
at 581. Therefore, the Court will dismiss Ms. Gartside
for lack of personal jurisdiction. See, e.g., Cox Enters.,
Inc. v. Holt, 678 F.2d 936, 938-39 (11th Cir. 1982)
(holding that the court did not have personal
jurisdiction over a defendant writer in a libel action by
an in-state plaintiff when the writer had never
travelled to or contacted anyone in the forum state and
therefore had not “purposefully direct[ed]” activities
toward the state).
IV.

CONCLUSION

For the reasons stated above, the Court DENIES
Discovery’s motion to dismiss for failure to state a
claim upon which relief can be granted. (Doc. 6). The
Court GRANTS BBC’s motion to dismiss for lack of
personal jurisdiction (Doc. 14) and GRANTS Kate
Gartside’s motion to dismiss for lack of personal
jurisdiction (Doc. 32). The Court requests that the
remaining parties please file a notice containing an
amended proposed scheduling order.

App. 82
DONE and ORDERED this September 30, 2015.
s/______________________________
MADELINE HUGHES HAIKALA
UNITED STATES DISTRICT JUDGE

App. 83

APPENDIX F
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
CASE NO. 18-12999-JJ
JUDSON LOVINGOOD
Appellant
vs.
DISCOVERY COMMUNICATIONS, INC. and
DISCOVERY COMMUNICATIONS, LLC
Appellees
ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN
DISTRICT OF ALABAMA NORTHEASTERN
DIVISION
Civil Action No. 5:14-CV-00684-MHH
BRIEF OF APPELLANT
Stephen D. Heninger, Esq.
HENINGER GARRISON & DAVIS
2224 1st Avenue North
Birmingham, Alabama 35203
T: 205.326.3336
F: 205.326.3332
Email: steve@hgdlawfirm.com
Attorney for Appellant

App. 84
CERTIFICATE OF INTERESTED PERSONS
Pursuant to 11th Cir.R.26.1-2, Appellant, Judson
Lovingood, submits the following Certificate of
Interested Persons:
1.

Bradley Arant Boult Cummings,
(Attorneys for Appellees)

2.

Brown, Jeffrey
Appellant)

3.

Discovery Communications, Inc. (Appellee
and Defendant in the case before the United
States District Court for the Northern
District of Alabama, Civil Action No.
5:14-cv-00684 MHH)

4.

Discovery Communications, LLC (Appellee
and Defendant in the case before the United
States District Court for the Northern
District of Alabama, Civil Action No.
5:14-cv-00684 MHH)

5.

Haikala, Honorable Madeline Hughes (Judge
for the U.S. District Court for the Northern
District of Alabama)

6.

Heninger Garrison Davis, LLC (Attorneys for
Appellant)

7.

Heninger, Stephen D., Esq. (Attorney for
Appellant)

8.

Kaufmann,
Appellee)

S.

Daniel,

Esq.

Esq.

(Attorney

(Attorney

LLP
for

for

App. 85
9.

Lovingood, Judson A. (Appellant and
Plaintiff in the case before the United States
District Court for the Northern District of
Alabama, Civil Action No. 5:14-cv-00684
MHH)

10.

Martin, Kimberly Bessiere, Esq. (Attorney
for Appellee)

No publicly traded entity has any interest in this
case or appeal.
STATEMENT REGARDING ORAL ARGUMENT
This case presents a unique and potentially
important issue of first impression for the law of
defamation. Therefore, Appellant respectfully requests
an opportunity for oral argument on whether a totally
false fabrication and alteration of sworn, transcribed
testimony is entitled to First Amendment protection.
[Table of Contents and Authorities Omitted from this
Appendix]
JURISDICTIONAL STATEMENT
It is undisputed that the District Court had original
jurisdiction of this case by virtue of complete diversity.
28 U.S.C. § 1332(c) The trial court entered a final
Order disposing of the entire case after denying
Plaintiffs Rule 59 Motion to Alter, Amend or Vacate its
granting of summary judgment on July 9, 2018. (Doc.
80) A timely Notice of Appeal from this final Order was
filed with the District Court pursuant to Rules 3 & 4
Federal Rules of Appellate Procedure on July 17, 2018.

App. 86
(Doc. 81) The appeal is from a final Order that disposes
of all parties’ claims.
ISSUES PRESENTED FOR REVIEW
I.

WHETHER
THE
TOTAL
FALSE
FABRICATION OF ACTUAL, OFFICIAL,
SWORN AND TRANSCRIBED TESTIMONY
FOR SIMPLE ARTISTIC PURPOSES IN A
PURPORTED
DOCUDRAMA
IS
PROTECTED SPEECH UNDER THE FIRST
AMENDMENT IN ANY CLAIM OF
DEFAMATION?

II.

WHETHER
AN
ACCEPTED
AND
ACKNOWLEDGED DUTY TO DOUBLE
CHECK FOR HINTS OF FALSITY AND
EVIDENCE/REASONABLE INFERENCES
OF PURPOSEFUL AND RECKLESS
AVOIDANCE OF THE TRUTH BY NEVER
REVIEWING THE SOURCE BOOK AND
OFFICIAL TRANSCRIPT OF TESTIMONY
TO READILY DETERMINE FALSITY
PUBLISHED SUPPORTS A JURY
QUESTION ON ACTUAL MALICE BY
PURPOSEFUL AVOIDANCE OF THE
TRUTH.

III.

WHETHER LOVINGOOD WAS A PUBLIC
OFFICIAL FOR PURPOSES “ENTIRELY
APART” FROM THE MOVIE SCENE AT
ISSUE AND WHETHER THAT IS OF ANY
DIFFERENCE WHEN FALSE TESTIMONY
IS PUT IN HIS MOUTH THAT WAS
UNDISPUTED IN ITS FALSITY.

App. 87
CASE HISTORY
This defamation and invasion of privacy (false light)
case was filed on February 28, 2014, in state court in
Huntsville, Alabama. The case was removed to the
Northern District of Alabama on April 14, 2014, based
upon diversity of citizenship. (Doc. 1) After protracted
discovery, the trial court granted summary judgment
for t he D efenda nt s fi nding i nsuffi ci ent
evidence/inferences of actual malice to support a jury
trial on August 1, 2017. (Doc. 74) Plaintiff filed a
Motion to Alter, Amend or Vacate that Order on
August 9, 2017. (Doc. 76) which was supplemented on
August 11, 2017. (Doc. 77) Defendants filed a Response
in Opposition to that motion on September 13, 2017.
(Doc. 78) Plaintiff filed a reply to that response on
September 26, 2017. (Doc. 79) The trial court entered
its final order denying Plaintiffs Motion to Alter,
Amend or Vacate on July 9, 2018. (Doc. 80) Plaintiff
filed a timely and proper Notice of Appeal on July 17,
2018. (Doc. 81)
SUMMARY OF THE ARGUMENT
Appellant maintains that the trial court erred in its
initial granting of the Defendant’s Motion for Summary
Judgment and then its refusal to alter, amend or
vacate that Order after an appropriate Rule 59(e)
F.R.C.P. motion.
This case involves a film entitled “The Challenger
Disaster” which was aired by Defendants on
November 16, 2013 by broadcast on The Science
Channel and the Discovery Channel in the United
States. The film, which was announced at its beginning

App. 88
as: “This is a true story” constructed a totally
fabricated and false scene depicting Dr. Lovingood
testifying under oath before the Presidential
Commission investigating the cause of this terrible
disaster in 1986 that took the lives of 7 astronauts.
There is no dispute that the movie put personal, sworn
and false testimony in the named mouth of Dr.
Lovingood that made it appear that he and NASA had
recklessly ignored calculations of failure probability
that never took place in reality.
The trial court concluded that Lovingood met the
definition of a public official and was thereby required
to show actual malice. (Doc. 74) Appellant disputes this
categorization because such a status/scrutiny must
exist separate and distinct from the movie at issue and
satisfy more general scrutiny purposes.
The trial court concluded that the facts showed: “It
is undisputed that there never was such a calculation,
and Dr. Lovingood never gave such testimony before
the Presidential Commission.” (Doc. 74 p. 2) “Both
scenes are fabrication.” (Doc. 74 p. 7) The trial court
further noted: “A jury potentially could infer from the
evidence that Discovery Channel willfully avoided the
opportunity ... ” to know of this false depiction. (Doc. 74
p. 22) However, the trial court determined, as a matter
of law, that this was the use of a dramatic
fictionalization and that the engineering falsities that
were created as actual, sworn testimony from
Lovingood were not capable of the audience recognizing
the difference. (Doc. 74 p. 22-23)
Placing false and fabricated sworn testimony in the
mouth of a witness should not be protected speech

App. 89
under the First Amendment under any circumstances.
The integrity and vitality of the oath must be
recognized as hallowed ground in our system of law.
This movie portrayed Lovingood as testifying to facts
and calculations that never occurred and were the
direct reversal of his actual, transcribed testimony. It
was also at odds with the book that was used as a
source for the announced “true story” that has been
characterized as a docudrama. Docudrama may be used
to look at actual, true testimony and inject dramatic
questioning, interpretation or opinion on that actual
testimony but there is no place for the embracing of
protection for reckless/malicious creation of a false
rendition of that recorded testimony under the guise
that this artistic license makes the story false BUT
MORE ENTERTAINING at the expense of the
reputation of a sworn witness.
The facts of this case reveal the firm foundation of
a jury question on whether this specific case shows
purposeful avoidance of the truth so that the trial court
should not have concluded, as a matter of law, there
was no possibility that a reasonable juror could find
such reckless and purposeful avoidance of the truth.
Even the trial court’s denial of the Rule 59(e) motion
explained that the jury charge would state, in pertinent
part:
“But, if Discovery failed to investigate because it
intended to avoid the truth, this is evidence that
Discovery either knew the statement was false or acted
with reckless disregard to whether the statement was
false or not.” (Doc. 80 p. 4)

App. 90
There should be a legal distinction between what is
simply a “false statement” and what is created as
“false, sworn testimony” where actual testimony is
concrete and transcribed but reversed and falsified for
a purported dramatic purpose. The Supreme Court has
recognized that alteration of quotes as a rhetorical
device can present a jury question on actual malice.
Masson v. New Yorker Magazine, 501 U.S. 496, 513
(1991) If just altering quotations from a presentation or
interview gets this respect, quotes from sworn
testimony must be accorded an even more protected
status especially where the publisher introduces its
film – “This is a true story.” To our knowledge, this is
a case of first impression based on the unique facts in
this case involving transcribed, sworn testimony.
The evidence shows that these Defendants assumed
a contractual duty (even above the common law) to
assure there was no defamation. This could not be
delegated back to be solely borne by the contracting
party BBC. The executive Director of Defendant
testified he was required to “double check” and “look for
hints” BBC was not properly researching the film for
accuracy. (Doc. 64-12 p. 167-68) He even warned BBC
“not to fictionalize an accusation against NASA.” (Doc.
64-12 (Exhibit 5)) He asked for their research notes
because he felt “like a backseat driver without a map.”
(Doc. 64-12 p. 110-11) He never received them and did
not follow up so he could “double check” for 10 months
before publication. He never read any part of the
testimony transcript and only skimmed the source
book. (Doc. 64-12 p. 128) There was substantial
evidence and room for reasonable inferences to support
a jury issue.

App. 91
The Order of the trial court was in error in deciding
these issues as a matter of law. The case should be
reversed and remanded for further proceedings.
ARGUMENT
I. THE
PUBLICATION
OF
FALSE
STATEMENTS OF KNOWN RECORDED,
SWORN TESTIMONY IS EVIDENCE OF
RECKLESS DISREGARD OF THE TRUTH
THAT PRESENTS A JURY QUESTION ON
ACTUAL MALICE.
Even if the trial court was correct in determining
that Dr. Lovingood was a public official, the evidence in
this record supports, if not demands, submission of the
issue of actual malice to a jury. The elementary concern
which is the backbone of the requirement for clear and
convincing evidence of malice in such cases is the
federal concern of whether sending a particular libel
case to the jury would “constitute a forbidden intrusion
on the field of free expression.” New York Times Co. v.
Sullivan, 376 U.S. 254, 285 (1964)
“Whether such conduct is merely negligent or
rises to the level of recklessness is an issue for
the jury.” Hammer v. Slater, 20 F.3d 1137, 1143
(11th Cir. 1994) (Finding that the Plaintiff had
presented the required “colorable evidence” that
invoked a jury’s determination)
****
“There is no constitutional value in false
statements of fact... neither the intentional lie
nor the careless error materially advances
society’s interest in uninhibited, robust and

App. 92
wide-open debate on public issues.” Dun &
Bradstreet v. Greenmoss Builders, 472 U.S. 749,
767 (1985) (Justice White, concurring) (The
main opinion noted: “We have long recognized
that not all speech is of equal First Amendment
importance” 472 U.S. at 758)
****
“...there are categories of communication and
certain utterances to which the majestic
protection of the First Amendment does not
extend because they are no essential part of any
exposition of ideas and are of such slight social
value as a step to the truth that any benefit that
may be derived from them is clearly outweighed
by the social interest in order and morality.”
Bose Corp. v. Consumers Union, 466 U.S. 485,
504 (1984)
****
“Calculated falsehood falls into that class of
utterances which are no essential part of any
exposition of ideas and are of such slight social
value as a step to the truth that any benefit that
may be derived from them is clearly outweighed
by the social interest in order and morality.”
Garrison v. Louisiana, 379 U.S. 64, 75 (1964)
[emphasis added]
There is clearly a balancing interest that is required
even where a public figure is involved. The Supreme
Court has emphatically rejected the adoption of a
“public controversy” characterization to replace that of
a public figure. Time, Inc. v. Firestone, 424 U.S. 448
(1976) In doing so, the Court stated: “... we sought a

App. 93
more appropriate accommodation between the public’s
interest in an uninhibited press and its equally
compelling need for judicial redress of libelous
utterances.” 424 U.S. at 456.
Proof of actual malice includes “purposeful
avoidance” of the truth. Harte-Hanks Communications,
Inc. v. Connaughton, 491 U.S. 657, 659 (1989) It
includes an intent to avoid the truth. Smith v.
Huntsville Times Co., Inc., 888 So.2d 492, 500 (Ala.
2004) “There is no constitutional value in false
statements of fact.” Gertz v. Robert Welch, Inc., 418
U.S. 323, 340 (1974) The test for actual malice is
focused upon alternative questions of whether the
Defendant made the alleged defamatory publication
“with knowledge that it was false or with reckless
disregard of whether it was false or not.” New York
Times Co. v. Sullivan, 376 U.S. 254, 279-80; Curtis
Publishing v. Butts, 388 U.S. 130, 164 (1967) Willful
blindness is the equivalent of actual knowledge. Hard
Rock Café Licensing Corp. v. Concession Services, 955
F.2d 1143, 1149 (7th Cir. 1992) The inquiry “is both
subjective and time sensitive, turning on the
Defendant’s state of mind at the time of the
publication.” Sindhi v. El-Moslimany, 2018 U.S. App.
Lexis 18857 (1st Cir. 2018) This Circuit has agreed
that the inquiry is subjective. Silvester v. American
Broadcasting Companies, 839 F.2d 1491, 1498
(11th Cir. 1988) This means that it is not a reasonable
man objective standard but must be examined on a
case by case basis with emphasis upon the particular
facts and circumstances/duty with respect to this
specific publication. “Reckless disregard, it is true,
cannot be fully encompassed in one infallible definition.

App. 94
Inevitably, its outer limits will be marked out through
case by case adjudication...” St. Amant v. Thompson,
390 U.S. 727, 730 (1968) This subjective analysis is not
simply left to the assertions or contentions of the
Defendant but must be examined in a holistic manner.
The Court’s job “is not to scrutinize each allegation in
isolation but to assess all the allegations holistically.”
Tellabs, Inc. v. Makar Issues & Rights, Ltd., 551 U.S.
308 (2007) Indeed, the Court in St. Amant v.
Thompson, took pains to instruct:
“The Defendant in a defamation action by a
public official cannot, however, automatically
insure a favorable verdict by testifying that he
published with a belief that the statements were
true. The finder of fact must determine whether
the publication was indeed made in good faith.
Professions of good faith will be unlikely to prove
persuasive, for example, where a story is
fabricated by the defendant, is the product of his
imagination, or is based wholly on an unverified
anonymous phone call. Nor will they be likely to
prevail when the publisher’s allegations are so
inherently improbable that only a reckless man
would have put them in circulation. Likewise,
recklessness may be found where there are
obvious reasons to doubt the veracity of the
informant or his reports. 390 U.S. at 732
[emphasis added]
This case involves the falsification, of sworn and
transcribed testimony by Dr. Lovingood before the
Presidential Commission charged with investigating
the Challenger disaster. This was not simply a

App. 95
tweaking or modification, it was total falsification of
sworn testimony on a crucial matter in this
investigation. There was a verbatim transcript of this
testimony. There is absolutely no evidence that anyone
at the BBC or Discovery Channel ever read any part of
the transcript of this crucial testimony. In fact, the
movie begins with three rolling title cards:
A) “This is a true story.”
B) “Based on the book “What Do You Care What
Other People Think” by Richard and Gweneth
Feynman and Ralph Leighton and interviews
with key individuals”
C) “Some scenes have been created for dramatic
purposes.”
There is no reference to the official, available and
published transcript of the actual testimony. Yet, the
critical scene in question was of sworn testimony given
before the Commission. While some might contend that
“some scenes” may be recreated for dramatic purposes,
that license cannot be extended to changing and
falsifying actual sworn testimony just for dramatic
purposes. The representation was made that this was
the testimony of Dr. Lovingood. It was totally
fabricated, reversed and falsified according to the
actual transcript and, in fact, even Dr. Feynman’s book.
It had no support anywhere and yet was depicted as
actual testimony. Dramatic effect cannot be allowed to
trump truth for entertainment purposes when it deals
with such a concrete and verifiable truth that is
contained in both the official transcript and the book.
Therefore, this case squarely confronts this crucial,

App. 96
legal question: “Can any media or publisher falsify and
manipulate actual recorded, sworn testimony for any
purpose that is protected by the First Amendment? “If
the answer to that question is “yes” there is no
protection to witnesses and our legal system in its
charge to reveal and record sworn testimony. It should
not matter in such an inquiry whether the witness is a
public official, an expert or a common lay witness. The
oath is common and essential to all. That oath cannot
be tainted, falsified or thrown about like a football at
the whim, agenda or fantasy of the publisher for any
purpose he desires. One might accurately quote the
transcribed and official, sworn testimony and then
make comments on its interpretation or effect but no
one has the liberty to change and falsify the testimony
itself. This is sacred ground not only to the witness but
also our system. Recreating and fabricating sworn
testimony is a falsification of fact. As the Supreme
Court has emphatically stated: “There is no
constitutional value in false statements of fact.” Gertz
v. Robert Welch, Inc., 418 U.S. 323, 340 (1974) The oath
must be protected for its revelation of the truth or
punished for its intentional falsehood in our system. As
this Court stated in Price v. Time, Inc., 416 F.3d 1327
(11th Cir. 2005):
“The object of requiring an oath is to instill in
the witness an awareness of the seriousness of
the obligation to tell the truth, or to affect the
conscience of the witness and thus compel the
witness to speak the truth, and also to lay the
witness open to punishment for perjury in case
the witness willfully falsifies.” 416 F.3d at 1347.

App. 97
While “reckless disregard” may be incapable of
being encapsulated in one infallible definition as the
Supreme Court stated in St. Amant v. Thompson, 390
U.S. at 730, its outer limits cannot embrace willful
blindness or avoidance of the truth in fabricating sworn
testimony when both the transcript and the book about
the situation clearly reveal the facts and their truth.
This case is unique and critical to the recognition that
such fabrication or willful blindness/avoidance of the
truth cannot be endorsed and elevated to First
Amendment protection (especially as a matter of law)
whether the Plaintiff is a public official or not.
A. FACTS SUPPORTING ACTUAL MALICE
In the book by Dr. Feynman, there is a scene that
takes place in a meeting at Marshall Space Flight
Center where Dr. Lovingood gave Feynman a briefing
on the main engine of the shuttle vehicle. The book
(which the movie claimed was the basis of the story)
describes this meeting with Lovingood and three others
as follows:
“(Feynman) all right “I said, here’s a piece of
paper each. Please write on your paper the
answers to this question: What do you think is
the probability that a flight would be
uncompleted due to a failure in this engine?
They write down their answers and hand in
their papers. One guy wrote 99.44% pure.:
(copying the Ivory Soap slogan) measuring about
1 in 200. Another guy wrote something very
technical and highly quantative in the standard
statistical way, carefully defining everything
that I had to translate – which also meant about

App. 98
1 in 200. The third guy wrote, simply, “1 in 200.
The third guy wrote, simply, “1 in 300.” Mr.
Lovingood’s paper, however, said, cannot
quantify, quality control in manufacturing,
engineering judgment.
“Well,” I said, “I’ve got four answers and one
of them weaseled.” I turned to Mr.
Lovingood: “I think you weaseled.”
“I don’t think I weaseled.”
“You didn’t tell me what your confidence was
sir, you told me how you determined it, what
was it?
“He says “100 percent” – the engineers’ jaws
drop, my jaws drop; I look at him, everybody
looks at him – “uh, uh, minus epsilon.”
So I say, “Well, yes; that’s fine. Now the only
problem is, WHAT IS EPSILON?”
He says “10-5.” It was the same number that
Mr. Ulian had told us about: 1 in 100,000.
I showed Mr. Lovingood the other answers
and said, “You’ll be interested to know that
there is a difference between engineers and
management here – a factor of more than
300.”
He says, “Sir, I’ll be glad to send you the
document that contains this estimate, so you
can understand it.” (See Doc. 64-1 (Exhibit 1)
which is pages 181-83 of the book.) [emphasis
added]

App. 99
Dr. Lovingood has testified by deposition that what
the passage in the book states is pretty much what
happened in this informal meeting. (Doc. 64-13 –
Deposition of Lovingood at p. 66; 88-89) Dr. Lovingood
then handed the actual report he referred to above to
Dr. Feynman later that day. (Doc. 64-13 – Deposition
of Lovingood at p. 72) Dr. Feynman had asked a very
specific engineering question to these men: “What do
you think is the probability that a flight would be
uncompleted due to a failure in this (main) engine?
[emphasis added] This specific engineering estimate
question was limited to a failure of the main engine. It
asked what was the probability that a failure of that
engine would cause a flight to be “uncompleted.” That
would include aborting the flight at any point and
relying on the manned flight to return to earth with no
damage by using alternative engines. The answer to
that specific question was developed by the same
engineers at Marshall (not management) to be 1 in
100,000 because this was a manned flight with
alternative engines and redundancies. (Doc. 64.13 –
Deposition of Lovingood at p. 86-87) What was the
probability that a main engine failure would cause a
flight to be uncompleted? That was the full extent and
context of the dialogue as recorded in the book.
Moreover, Feynman’s book unequivocally states that
this main engine did exactly as Lovingood explained
and shutdown and worked perfectly on the occasion of
this disaster and had nothing to do with the Challenger
disaster! (Doc. 64-2 (Exhibit 2) which is page 225 of the
book.) The explosion was determined to have been
caused by the low temperature exposure to O-rings
that became brittle and failed on this cold day and that
Morton-Thiokol should not have recommended launch

App. 100
under these circumstances. It is undisputed that the
subject of Dr. Feynman’s probability question on main
engine failure had NOTHING to do with this disaster.
In the movie at issue, this scene was substantially
changed and falsified. Instead of just a meeting, as
described in the book, Feynman is shown in a cafeteria
eating lunch with some engineers at Marshall. In this
movie scene, Lovingood is not even present. Feynman
says to the engineers:
“If I was to ask you engineers, never mind what
the managers say, but you guys, given all your
experience what you thought the probability was
of an accident on any single launch...
A mass hesitation. The shutters have come down
again. Feynman (cont’d)
“If you don’t want to say out loud...perhaps write
down a figure?”
But no one will meet his eye. (Doc. 64-3 (Exhibit
3) Movie script) [emphasis added]
The specific question in the book about the main
engine failure has been changed to “the probability of
an accident on any single launch” This is much
broader – any accident or failure – even if it didn’t
result in an uncompleted flight. Additionally, the movie
scene alters the book by having Dr. Feynman say he
was asking these engineers to separate their informal
opinions and “never mind what the managers say, but
you guys” – making it appear there was a difference
that management would cover up. This never took
place in the meeting presented in the book. While this

App. 101
is a fabrication that is clearly and materially different
from the book, it was not sworn testimony and one
could argue it was a material falsification of the very
basis of the book but was done for dramatic effect
because it was not sworn testimony. However, this
falsity was used as foreplay for the malicious
fabrication that was to follow and to set up the scene
where Dr. Lovingood was actually testifying before the
Presidential Commission. False testimony that made it
seem that NASA managers were covering up
probability calculations that never took place.
The later scene at the Commission hearing shows
NASA’s representatives, Mulloy, Hardy, Lovingood and
Reinartz being sworn in – it actually shows THE OATH
being administered. (Doc. 64-3 (Exhibit 3) p. 82)
(Important Note: In the script, this scene did not even
include Lovingood but was altered later to insert him.
(Doc. 64-12 – Deposition of Rocky Collins p. 160-61)
The Chairman of the Commission is speaking:
“Rogers: Dr. Lovingood?
Lovingood: There was no idea that the flight
could fail. Ice water and opaque glasses are
being passed along. Feynman has been waiting
for this moment. He raises a hand.
Feynman (cont’d)
“Could you remind me what NASA overall
calculates the probability of shuttle failure to be?
Failure meaning the loss of the vehicle and the
deaths of the entire crew.” [emphasis added]

App. 102
Lovingood
“Certainly, that would be...”
Lovingood takes a moment to rifle through
papers.
Feynman takes a sip of water, Lovingood finds
the paper he’s looking for.
Lovingood
“One in ten to the power of five”
Feynman
“Really? Could you explain that?
Lovingood
“Yes, that the probability of mission success is
one hundred percent. Minus Epsilon.
Feynman
“Epsilon”? Pretty fancy word...Let’s pull all
you’ve said there into English...that’s one failure
in one hundred thousand flights. So you claim
the shuttle would fly every day for THREE
HUNDRED YEARS before there would be a
single failure. That’s crazy. (laughing)
How would you ever test that?
Lovingood hides his discomfort in pulling out
more paperwork.

App. 103
Lovingood
“NASA arrived at that figure because it is a
manned flight.”
Feynman
“Just because there are people on board! That’s
not a scientific calculation – that is a “wish”
A buzz of baffled consternation throughout the
room.
Feynman
“And interesting that the figure is very different
from that of NASA’s own engineers.”
He picks up small piece of paper in front of him.
It says “We think Ivory Soap” on which is added
“99.4%. In other words, roughly one flight in
every two hundred will fail...
Sally Ride
“One in two hundred. Wow. Not what the
astronauts are aware of - that’s a potential
disaster every three and half years. (Doc. 64-3
(Exhibit 3) at pages 84-86) [emphasis added]
Thus we see that the true, undisputed facts from
the source book which is the undisputed and
announced foundation for the movie is as follows:
1) The book asks the engineers what is the
probability of a main engine failure causing
a flight to be “uncompleted” in any manner.

App. 104
2) The altered first scene in the movie has the
engineers being asked what they think “the
probability is of an accident on any single
launch.”
3) The sworn testimony of Dr. Lovingood has
him being asked “...what NASA overall
calculates the probability of shuttle failure to
be? Failure meaning the loss of the vehicle
and death of the entire crew.” [emphasis
added]
We go from a truthful probability of main engine
failure causing a flight to be “uncompleted” which
NASA did, in fact, clearly calculate to be 1 in 100,000
because of a manned flight if the main engine failed
since there are redundancies for the crew to use in that
event. We transition to a fabrication that the statistical
probability is really 1 in 200 that the vehicle will blow
up and kill the entire crew. This conclusion (in the
movie) is announced by Feynman using the 1 in 200
uncompleted probability with main engine failure to be
the incredible transposition of “roughly one flight in
every two hundred will fail” (Doc. 64-3 (Exhibit 3)
p. 86) “Failure meaning the loss of the vehicle and the
deaths of the entire crew.” (Doc. 64-3 (Exhibit 3) p. 85)
Dr. Lovingood did, in fact, testify before the
Commission. He testified on the fail-safe features of the
main engine so “it would not cause loss of the shuttle
vehicle and death of the entire crew.” (Doc. 64-13 –
Deposition of Lovingood at p. 43-44) There is a
transcript of that testimony. This movie scene depicts
and portrays him as committing perjury in front of the
Commission. (Doc. 64-13 – Deposition of Lovingood at

App. 105
p. 104) The factual truth in the book dealt with a
discussion at the Marshall Space Flight Center
concerning probability of failure of the main engine not
allowing the flight to be completed, “Nothing about
human life.” (Doc. 64-13 – Deposition of Lovingood at
p. 175) The question before the Commission as shown
in the movie was never asked of him. (Doc. 64-13 –
Deposition of Lovingood at p. 360) NASA had never
made any calculations as addressed in this scene. (Doc.
64-13 – Deposition of Lovingood at p. 361) None of the
NASA engineers had ever done any such calculations
on the probability question fabricated and falsified in
this movie scene... (Doc. 64-13 – Deposition of
Lovingood at p. 361) Indeed, the trial court noted in its
order granting summary judgment:
“It is undisputed that there never was such a
calculation, and Dr. Lovingood never gave such
testimony before the Presidential Commission.”
(Doc. 74, p. 2)... both scenes are fabrication.”
(Doc. 74, p. 7)
The contract between the British Broadcasting
Company (BBC) and the Discovery Defendants placed
obligations on Discovery not to authorize or use the
film if it were defamatory or invaded the privacy of any
person. (Doc. 64-4 (Exhibit 4). Discovery’s Executive
Producer (Rocky Collins) testified that it was his job to
make sure BBC was diligent in its research to support
accurate depictions in the movie. (Doc. 64-12 –
Deposition of Rocky Collins at p. 143)
“I have a lot of obligations to make sure that it is
true and the way I do that is to encourage,
double check, remind them, look for hints that

App. 106
they might not be doing their job and that is
what I did.” (Doc. 64-12 – Deposition of Rocky
Collins at p. 168) [emphasis added]
****
“... all I am obligated to do is to double check –
you know, to just double check that they are
doing their job and look for hints that they
might not be.” (Doc. 64-12 – Deposition of Rocky
Collins at p. 167) [emphasis added]
Mr. Collins testified that he did not appreciate or
recognize that this sworn testimony scene had just
been created for dramatic purpose. (Doc. 64-12 –
Deposition of Rocky Collins at p. 143-44) He had only
skimmed part of the book and didn’t recall the scene of
Feynman’s conversation with engineers at Marshall.
(Doc. 64-12 – Deposition of Rocky Collins at p. 146) He
agreed that Discovery had an obligation not to publish
a false statement that was defamatory. (Doc. 64-12 –
Deposition of Rocky Collins at p. 63) Ten months before
this film was aired by Discovery in the United States,
he wrote an email to the BBC after watching it and
asking to see their notes on research – doing his
“double check”; “looking for hints that they might not
be doing their job.” (set forth above) The email stated:
“I feel like a backseat driver without a map.” (Doc.
64-12 – Deposition of Rocky Collins at p. 110-11) He
never received any of the notes he was requesting to do
his job and none were ever produced in discovery
requests. He never read any of the official transcript of
the sworn testimony this defamatory scene fabricated.
(Doc. 64-12 – Deposition of Rocky Collins at p. 128) He
was totally unaware of the conclusion that it was an
O-ring problem that Morton Thiokol had created by

App. 107
launching on an unusually cold day and that it was Dr.
Lovingood who was actually the one who demanded a
conference call with them to address that critical issue
before launch. (Doc. 64-12 – Deposition of Rocky Collins
at p. 128) Lovingood testified that was the critical
mistake to launch the Challenger under those
circumstances - not any main engine failure. (Doc.
64.13 - Deposition of Lovingood at p. 157-58) He was
the one who wanted the pre-launch conference call and
Thiokol recommended the tragic launch. (Doc. 64-13 Deposition of Lovingood at p. 229-30) The temperature
was the mistake. (ibid at p. 367-68) Collins even wrote
BBC to “Be very careful not to fictionalize an
accusation against NASA.” (Doc. 64-5 (Exhibit 5) –
Bates Stamp 01566) Yet this critical and false sworn
testimony scene was clearly fabricated to look like
NASA and Lovingood had lied about calculations of
failure probability that never took place. The effect was
not just “dramatic”, it was a lie that made Lovingood
look like the liar and 7 people were killed as a result.
Discovery’s Executive Producer admitted that the
scene in the book was obviously changed to the sworn
testimony at the hearing that never happened and that
there was a “disconnect” between the two. (Doc. 64-12 –
Deposition of Rocky Collins at p. 91-92) He went on to
say:
If I were aware of the discrepancy, I would have
asked the BBC to explain the discrepancy and I
would ask - - and I would seek a legal opinion
about whether that - - that discrepancy was
actionable.” (Doc. 64-12 – Deposition of Rocky
Collins at p. 92)

App. 108
This is the executive whose admitted obligation was
to double check and look for hints on such
discrepancies. Even a cursory familiarity with the book
and the fabricated sworn testimony scene would show
the defamatory nature of putting sworn words in
Lovingood’s mouth that were false. He never followed
up the “notes” he said were essential. This willful
blindness and avoidance of the truth, was established
by recognizing and accepting that he was “feeling like
a backseat driver without a map.” (Doc. 64-12 –
Deposition of Rocky Collis at p. 110-11) For ten months
he never followed up on getting the notes or research
by BBC to assure accuracy! This was his admitted job!
Even the Defendant’s expert has acknowledged the
Commission testimony scene never took place in reality
and truth. (Doc. 64-14 – Deposition of Hirsch at p. 52)
“Q.

Well, it is obvious the question was
changed from main engine failure to total
loss of mission and 1 death of the entire
crew, wasn’t it?

A.

There is no question that the wording was
changed.” (Doc. 64-14 – Deposition of
Hirsch at p. 55)

Q.

A.

****
Well, let us look at the circumstances.
The scene that we are about in this case
was Dr. Lovingood testifying under oath
before the Commission, depicts his
testifying under oath, doesn’t it?
It does.

App. 109
Q.

It puts words in his mouth under oath,
doesn’t it?

A.

It does.

Q.

That testimony,
occurred, did it?

A.

Q.

A.

in

fact,

never

That testimony did not occur. That
distinction is important in my opinion.”
(Doc. 64-14- Deposition of Hirsch at p. 62)
****
Did anyone from NASA ever make a
report or statement that they had
calculated the probability of shuttle
mission failure with loss of vehicle and
death to the entire crew to be 1 in
100,000?
Not to my knowledge.

Q.

Yet the movie shows Dr. Lovingood
testifying to that, doesn’t it?

A.

Yes, it does.” (Doc. 64-14 - Deposition of
Hirsch at p. 76-77)

As Lovingood testified at his deposition, NASA
could not test or calculate for the question posed in the
movie. It was impossible to calculate such a
hypothetical. Thus, there had been no such calculation
and testifying there was such a calculation as shown
would be a lie. (Doc. 64-13 - Deposition of Lovingood at
p. 385-88)

App. 110
Therefore, Discovery showed Lovingood committing
perjury by fabricating that he testified there was such
a calculation. (See 18 U.S.C. § 1621 which defines
perjury before any “competent tribunal.”) This Court
has held that testimony can be perjury even if it is
inherently improbable or “too fantastic to be believed”
because it is a taint on the oath. United States v. Burks,
402 Fed. Appx. 486, 491 (11th Cir. 2010)
B. DRAMATIC PURPOSE IS NO SHIELD FOR
FALSIFYING AND FABRICATING SWORN
AND RECORDED TESTIMONY
Defendants contend that the movie only “slightly
rephrased” the question in the book to what it was at
the Commission hearing. (Doc. 63 at p. 17) Such a
characterization is more than an advocate’s
understatement or spin as shown in the preceding
details of this brief. Defendants go so far as to say: “A
review of pertinent sections of the sources for this scene
reveals that the scene is substantially true.” (Doc. 63 at
p. 22) They say the distinction between shuttle failure
(the scene says with death of the entire crew) as
opposed to “engine failure” is a distinction “without a
difference to the reasonable viewer watching the
broadcast.” (Doc. 63 at p. 24) Really? No difference
between an uncompleted flight due to some glitch that
allows the pilot to return and a failure that explodes –
destroying the vehicle and death to the entire crew? If
there is no difference, why was the scene of sworn
testimony changed at all? The answer is clear. The
falsification created a conspiracy between managers
like Lovingood to hide the calculations of engineers.
Calculations that the book and the official transcript

App. 111
show NEVER took place and were created by this
movie by mixing unrelated calculations.
Defendants further contend this was a “docudrama”
and “deviations from or embellishments” are allowed
“to recount and popularize an historic event.” (Doc. 63
at p. 25-26) We are not dealing here with a deviation or
embellishment of a conversation or relationship for
dramatic purpose. This was the falsification and
fabrication of sworn testimony by Dr. Lovingood,
identified by name in the movie. It is undisputed that
this testimony never took place and that the scene put
these false words in Dr. Lovingood’s mouth which was
a lie. The Supreme Court has held that altering quotes
can be actionable for libel. Masson v. New Yorker
Magazine, 501 U.S. 496 (1991) just altering quotes –
not to mention falsely fabricating sworn and
transcribed testimony!
“The work at issue here, however, as with much
journalistic writing, provides the reader no clue
that the quotations are being used as a
rhetorical device or to paraphrase the speaker’s
actual statements. To the contrary, the work
purports to be non-fiction, the result of
numerous interviews. At least a trier of fact
could so conclude.” 501 U.S. at 513. [emphasis
added]
The Masson court opined that it would not adopt the
argued rational interpretation standard posed by the
publisher because, in effect, “...we could give journalists
the freedom to place statements in their subjects’
mouths without fear of liability.” 501 U.S. at 520.

App. 112
The Defendants have not cited nor has Plaintiff
found any case law that supports changing and
falsifying transcribed, sworn testimony as a protected
form of speech. This Court should not be the one that
embraces such a terrible and dangerous precedent as
simply being an entertaining effort for “dramatic
purpose.” How can the Defendants earnestly depart
from the above quoted statements in Masson when
their own media expert testified:
“Q.

It puts words in his mouth under oath,
doesn’t it?

A.

It does.” (Doc. 64-14 - Deposition of
Hirsch at p. 62)

II. DR. LOVINGOOD WAS NOT PROPERLY
CATEGORIZED AS A PUBLIC OFFICIAL
FOR PURPOSES OF THIS LIBEL ACTION
It should not matter whether a public official,
expert or common witness is falsely depicted as
committing perjury under oath in a movie or a writing.
Such a gross and malicious act should be libel per se
where there are such clear facts as those of this case.
However, for purposes of this appeal, we feel it
necessary to address this status because of the New
York Times v. Sullivan requirement of sufficient proof
or inference of actual malice.
Dr. Lovingood was clearly a public employee. Public
official status does not extend to all public employees.
Hutchison v. Proxmire, 443 U.S. 111, 119 N.8 (1979)
State law standards of public officials do not apply to
the analysis. Rosenblatt v. Baer, 383 U.S. 75, 84 (1966)
Moreover, the Rosenblatt court observed: “The

App. 113
employee’s position must be one which would invite
public scrutiny and discussion of the person holding it,
entirely apart from the scrutiny and discussions
occasioned by the particular charges in controversy.”
383 U.S. at F.N. 13. The reason for such “public
official” concerns is the allowance of criticism for those
in positions of control for public policy and decisions.
Falsifying and fabricating sworn testimony has no
connection to the right to scrutinize or criticize public
officials. It fabricates false scrutiny. Therefore, that
concept should not apply to this case especially because
this falsehood was not “entirely apart from the scrutiny
and discussion occasioned by the particular charges in
controversy.” (supra) Discovery published made-up
sworn testimony and created this scrutiny. They should
not be allowed to use their own methods of falsehood to
cloak Lovingood as a public official under the particular
facts of this case. He was only one of many NASA
witnesses before the Commission and his emphasis was
on the safety redundancies of a manned flight. He was
a scientist who gave truthful and calculated support to
the proper analysis of his department only to be
recreated as a liar with cavalier rejection of fabricated
engineering concerns that never took place.
CONCLUSION
For the foregoing reasons and to protect the
Appellant’s reputation and integrity of testimony under
oath, Appellant urges this Court to reverse the Order
of the trial court and remand this case for trial on the
merits.
[Certificates of Compliance and Service Omitted from
this Appendix]

App. 114

APPENDIX G
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
CASE NO. 18-12999-JJ
JUDSON LOVINGOOD
Appellant
vs.
DISCOVERY COMMUNICATIONS, INC. and
DISCOVERY COMMUNICATIONS, LLC
Appellees
ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN
DISTRICT OF ALABAMA NORTHEASTERN
DIVISION
Civil Action No. 5:14-CV-00684-MHH
APPELLANT’S REPLY BRIEF
Stephen D. Heninger, Esq.
HENINGER GARRISON & DAVIS
2224 1st Avenue North
Birmingham, Alabama 35203
T: 205.326.3336
F: 205.326.3332
Email: steve@hgdlawfirm.com
Attorney for Appellant

App. 115
[Table of Contents and Authorities Omitted from this
Appendix]
INTRODUCTION
The film made the subject of this litigation is “The
Challenger Disaster” which was the subject of a “CoProduction Agreement” between the British
Broadcasting Company (BBC) and Discovery. BBC
would air a version of their choosing in Great Britain
while Discovery “shall only be able to exploit the
Programme in the United States.” (Appellee’s Appendix
Vol. 8 part 1 at paragraph 11.1.) “Discovery “DCL”
shall have the right to edit its version of the
Programme (DCL version).” (ibid at paragraph 11.3)
Discovery also agreed “not to use or authorize the CoProduced Programme to be used in any manner likely
to bring either party into disrepute or which is
defamatory or invades the privacy of any person.”
(Appellee’s Appendix Vol. 8 part 1 at paragraph 15.5)
[emphasis added]
The signed Co-Production Agreement has a section
called Programme Outline for the film about this
Challenger Disaster which shows how the film will be
aimed. It states, in pertinent part, that this disaster
“was the most shocking event in the history of
American spaceflight” and goes on to state:
“But what was even more shocking was that the
cause of the disaster might never have been
uncovered. Too many powerful individuals in the
Shuttle Programme were implicated in the
fateful decision to launch, the cover up was

App. 116
quick and convincing, and the Commission
charged with investigating the disaster was slow
and bureaucratic. It was (sic) simply wasn’t
equipped to dig out the truth. Into the
conspiracy was thrown the physicist Richard
Feynman ... revealing deception and cover up in
the heart of the Space Programme.” (Appellee’s
Appendix Vol. 8 part 1 at paragraph 9.1)
There is no dispute that Dr. Judson Lovingood
testified at the Commission hearings. There is no
dispute that he was sworn in as a witness at this
hearing:
“(The Clerk) “Do you swear the testimony you
will give before this Commission will be the
truth, the whole truth and nothing but the
truth, so help you God?
Lovingood: I do.” (Appellee’s Appendix Vol. 9,
Ex. 69 p. 58-59 of actual transcript.
There is no dispute that the film shows Lovingood
being sworn and testifying to facts that were never
asked or answered to by Lovingood in an effort to
falsely create a malevolent intent to cover up and
ignore reports that never existed at NASA but made it
appear Lovingood and his management colleagues
ignored risk reports by engineers that never existed.
The trial court acknowledged this undisputed
difference in the sworn testimony that was altered and
in fact, fabricated for the film. “Dr. Lovingood did not
testify that “the probability of total mission failure was
1 in 100,000” and “no engineer ever said it was 1 in
200.” (Doc. 74 at p. 8) “... it is undisputed that there

App. 117
never was such a calculation and Dr. Lovingood never
gave such testimony before the Presidential
Commission.” (Doc. 74 at p. 2) “...both scenes are
fabrications.” (Doc. 74 at p. 7)
The precise issue before this Court is plain and very
significant. The U.S. Supreme Court has stated: “There
is no constitutional value in false statements of fact.”
Gertzv. Robert Welch, Inc., 418 U.S. 323, 340 (1974)
This is the distilled issue in this important case:
“Issue: Can the media take the sworn,
transcribed testimony of a witness to an
important issue of public concern like this
shuttle disaster and, instead of depicting the
actual testimony, create and falsely fabricate
testimony in the mouth of that witness for the
purposes of making a represented “true story”
more dramatic and malevolent or exciting?”
Should this court or any tribunal amend the oath
that is taken by witnesses to read this way:
“Do you swear the testimony you will give in this
matter will be the truth, the whole truth and
nothing but the truth, so help you God - but with
the understanding that if any media chooses to
alter it or create different testimony by you to be
more dramatic, even if false, they may do that
under the First Amendment?”
Would any witness or our legal system accept such
an invidious oath? In the Gertz quotation set forth
above rendered impotent and inapplicable where a film
producer wants to make a film more entertaining by
creating false and unstated testimony on a matter of

App. 118
immense public concern? These are not rhetorical
questions. They are at the very undisputed heart of
this case.
It must also be pointed out in this introduction that
Appellee’s Brief cited material or evidence which was
never submitted to the trial court or made a part of the
records.
Indeed, Appellees frankly admit “Discovery did not
submit a copy of the report below.” (Appellees’ Brief at
F.N. 3 on page 21) Appellees cite a quote from that
source from Chapter 3. Of course, such a reference to
evidence not in the record is inappropriate. However
(under the evidentiary rule of curative admissibility
when improper evidence is submitted by an opponent)
what Appellees failed to cite from that same Chapter is
the support for Lovingood’s actual testimony that
NASA had not and could not quantify the probability of
total mission failure resulting in loss of the vehicle and
death of the entire crew as fabricated in this film: “It is
the consensus of the NSTS [National Space
Transportation System] that the approach of
determining when a vehicle is safe to fly based on a
well-evaluated and documented program with
attention to details is superior to relying on a reliability
number derived from an insufficient data base in which
only minimum confidence levels can be established for
its flight and ground hardware and software.” (Report
cited by Appellees at p. 385) Appellant urges this Court
to either disregard this improper cite by Appellees or
consider the context shown above in addition thereto.

App. 119
I. THE FIRST AMENDMENT DOES NOT
PROTECT FABRICATED, FALSE
STATEMENTS PUT INTO THE
“HISTORICAL” MOUTH OF A WITNESS
WHOSE SWORN TESTIMONY HAS BEEN
FALSIFIED FOR ENTERTAINMENT.
Discovery (Appellee) has taken the position in its
brief that: “The First Amendment does not
categorically exclude artistic editing of sworn testimony
in a film.” (Appellee’s brief at p. 45) Discovery says that
“Film’s design to “entertain as well as inform” does not
mitigate its significance within the public discourse.”
(Appellee’s’ brief at p. 45) This case does not involve
any “artistic editing” of sworn testimony. It involves
the clearly established, bold and naked falsification of
sworn testimony with no cosmetic adornment of
“artistic editing.” It is false and never took place. It was
“created” not edited. This film does not put the
proverbial lipstick on a pig – it actually creates the pig
so the stark ugliness of the created pig can engender
disgust and condemnation in the viewers for
entertainment at the expense of sacrificing truth.
The film itself begins with the declaration in
writing: “This is a true story.” (R-7(1)-2; R-60 (26)-01:36)
The viewers (over 5 million by records produced) were
never advised that this was actually planned as
Discovery’s first attempt at “fictional drama.” (See Doc
64 p. 45-46) This is different than a docudrama. The
victim of that “fiction” which departed from recorded
testimonial proof was Dr. Judson Lovingood. He was
the pig that was falsely created as committing perjury

App. 120
to make the film more entertaining. Here is why we say
that:
1. During the preparation of this film, Discovery
corresponded with BBC about their joint plan for
ways to show NASA management was “covering
up their actions.” As Plaintiff discussed in his
brief opposing summary judgment, a crucial
email from Discovery to BBC stated: “We will
witness unexplained behavior by characters,
initially anonymous but when we later identify
as Mulloy, et al. and we will over hear the
strategic advice of anonymous attorneys,
building a feeling of malevolent intent that we
gradually reveal is aimed at suppression of the
truth at all costs.” (Doc. 64-6 attached to Doc 65
of Plaintiffs brief at summary judgment) In fact,
they went so far as to suggest using “faked”
news clips or even addressing a theme of
sabotage. Discovery said to BBC that with
regard to the sabotage ideas: “We prefer to lose
this from the U.S. version.” (Doc. 65 at p. 24)
The strategy was clear – look for a way to depict
someone inside NASA as “suppressing the truth
at all costs.” This would be the emotional hook
for the film. But how do they get it?
2. The undisputed truth is that NASA had never
calculated any probability of shuttle failure
where failure with the loss of the vehicle and
death to the entire crew could occur as it did
with this Challenger disaster. Lovingood
testified to this fact of no such calculation at the
Presidential Commission and in his deposition

App. 121
(Doc. 64-13 – Deposition of Lovingood at p. 4344; 361) Lovingood actually testified to the
Commission on the fail-safe features of the main
engine so “it would not cause loss of the shuttle
vehicle and death of the entire crew.” (Doc. 65 at
p. 8)1 There had never been any such calculation
and it could not be done – testifying that there
had been such a calculation would be a lie. (Doc.
65 at p. 8)
3. In Dr. Feynman’s book, there was a section that
dealt with a conversation he had with Lovingood
and three other engineers at Marshall Space
Flight Center. In that book, Feynman gives a
piece of paper to each of them and asks them to
write their answers to this question: “What do
you think is the probability that a flight would
be uncompleted due to a failure in this (main)
engine?” Two engineers wrote 1 in 200, one
engineer said 1 in 300; Lovingood said 10-5
minus epsilon or 1 in 100,000 which he showed
by giving a copy of a NASA report to Feynman.
(Doc. 64-1 (Ex. 1) which was pages 181-83 of the
book)
The specific question deals with “uncompletion”
of a shuttle flight due to main engine failure
alone. Nothing about total loss of the shuttle and
death to the entire crew for any possible
scenario. Uncompletion could be an aborted

1

For ease of reference, citations are made to Appellant’s brief
opposing summary judgment which contains the documentary
references given here.

App. 122
mission, a return to earth or any number of
possibilities. Moreover, none of these engineers
had ever submitted or participated in any
analysis or report on this question before – they
were simply responding to Dr. Feynman’s
request at lunch in the cafeteria. Yet the film
will be shown to use this section of the book to
make it seem like engineers had made reports
that NASA managers like Lovingood had
ignored and then sugar coated to make the
probabilities of death much less than the on-line
engineers – 1 in 100,000. The book does not say
that and it never happened.
4. In the film scene where Lovingood is identified
and named as testifying before the Presidential
Commission, the question to the engineers is
changed by the actor playing Dr. Feynman:
“Could you remind me what NASA overall
calculates the probability of shuttle
failure to be? Failure meaning the loss of
the vehicle and the deaths of the entire
crew.” Lovingood is shown testifying:
“One in ten to the power of five...Yes, that
the probability of mission success is one
hundred percent. Minus Epsilon.” Then
Dr. Feynman says “and interesting that
the figure is very different from that of
NASA’s own engineers... In other words,
roughly one flight in every two hundred
will fail...” Then the astronaut, Sally
Ride, says: “One in two hundred. Wow.
Not what the astronauts are aware of –

App. 123
that’s a potential disaster every three and
a half years.” (Doc. 64-3 (Exhibit 3) at
pages 84-86) [emphasis added]
5. This is the hook to show Lovingood and his
management colleagues will be shown to have
the planned storyline of “malevolent intent...at
suppression of the truth at all costs.” (Doc. 65 at
p. 24) This was not accidental, inadvertent or
just the purported “artistic editing” of sworn
testimony. It never happened! NASA never
made and was incapable of making any
probability calculations of total shuttle failure
with loss of the vehicle and the deaths of the
entire crew. No engineer ever said that the
probability of that was 1 in 200. No reports were
made by engineers on that question that
Lovingood and his colleagues ignored or tried to
avoid “at all costs.” Three engineers had simply
answered an informal question of what they
thought the probability of any “uncompleted”
flight might be if the specific main engine failed.
Yet the film made it appear that these engineers
were telling NASA there was a 1 in 200
probability of a total failure of a shuttle in flight
that would result in loss of the vehicle and
deaths of the entire crew but management and
Lovingood said their calculation was 1 in
100,000. No such calculation had ever been
made for this question and the undisputed
evidence shows it could not be done. Instead, the
film mixes these questions to produce the
desired, dramatic effect of malicious intent with
Lovingood lying and saying there were

App. 124
calculations and a report that never existed.
This is not “artistic editing” or historic drama. It
is falsehood and deception.
6. The trial court stated in its Order: “Dr.
Lovingood did not testify “that the probability of
total mission failure was 1 in 100,000 and “no
engineer ever said it was 1 in 200.” (Doc. 74 at
p.8)
****
“it is undisputed that there never was such a
calculation and Dr. Lovingood never gave such
testimony before the Presidential Commission.”
(Doc. 74 at p.2) “...both scenes are fabrications.”
(Doc. 74, at p. 7)
7. The media expert for Discovery, James G.
Hirsch, testified:
“Q.

Well, let us look at the
circumstances. The scene that we
are about in this case was Dr.
Lovingood testifying under oath
before the Commission, depicts his
testifying under oath, doesn’t it?

A.

It does.

Q.

It puts words in his mouth under
oath, doesn’t it?

A.

It does.

Q.

That testimony, in fact, never
occurred, did it?

App. 125
A.

Q.

That testimony did not occur. That
distinction is important in my
opinion.” (Doc. 64-14 – Deposition
of Hirsch at p. 62)
****
Did anyone from NASA ever make
a report or statement that they had
calculated the probability of
shuttle mission failure with loss of
vehicle and death to the entire
crew to be 1 in 100,000?

A.

Not to my knowledge.

Q.

Yet the movie shows Dr. Lovingood
testifying to that, doesn’t it?

A.

Yes, it does.” (Doc. 64-14 –
Deposition of Hirsch at p. 76-77)

8. Discovery’s Executive Producer testified that in
this joint venture with the BBC, it was his job to
make sure BBC was diligent and truthful in its
research to support accurate depictions in the
movie. (Doc. 64-12 – Deposition of Rocky Collins
at p. 143) He specifically stated his job was “to
just double check that they are doing their job
and look for hints that they might not be.” (Doc.
64-12 – Deposition of Collins at p. 167) The
contract between BBC and Discovery squarely
placed the obligation on Discovery not to
authorize or use the film if it were defamatory or
invaded the privacy of any person under
American law. (Doc. 64-4 Exhibit 4)

App. 126
9. The main engine question that Feynman posed
to Lovingood and the 3 engineers in the cafeteria
was stated by Feynman in his book to actually
have “worked perfectly” in this disaster. In fact,
he says in the movie to his wife: “I goofed.
Thought I had the answer. I was way wrong.”
(See Complaint Doc. 1, p. 5 and the film
submitted by Discovery with its brief.)
Despite this clear fabrication and putting false
testimony that is designed to show malevolence and
covering up by Lovingood, Discovery continues to
characterize this as simple “artistic editing.” Discovery
says this was only “slight editing” with minor
inaccuracies. (Appellee’s brief at p. 39) This assault on
the oath and the content of sworn testimony is of great
concern and in need of recognition by this court that
fabricating such testimony is not protected speech. The
U.S. Supreme Court stated in Lane v. Franks,
___vs.___, 134 S. Ct. 2369 (2014):
“Anyone who testifies in Court bears an
obligation, to the court and society at large, to
tell the truth. (See e.g. 18. U.S.C. § 1623
criminalizing false statements under oath in all
judicial proceedings.) (citations omitted) 134
S. Ct. at 2379 (See also the 11th Circuit opinion
in Price v. Time, Inc., 416 F.3d 1327, 1347
(11th Cir. 2005) (as the trial court noted in its
ruling on the motion to dismiss this action filed
by Discovery: “... the depicted false, sworn
testimony to the Commission is tantamount to
the accusation of a crime – namely perjury.”
(Doc. 36 at p. 13)

App. 127
The actual malice standard from New York Times
Co. v. Sullivan, 376 U.S. 254 (1964) has been expanded
to include “purposeful avoidance” of the truth. HarteHanks Communications, Inc. v. Connaughton, 491 U.S.
657, 659 (1989) Reckless disregard of whether the
statement published is true or not is proof of actual
malice. New York Times v. Sullivan, 376 U.S. 254, 27980 (1964) Willful blindness is the legal equivalent of
actual knowledge. Hard Rock Café Licensing Corp. v.
Concession Services, 955 F.2d 1143, 1149 (7th Cir.
1992) As the Supreme Court stated in St. Amant v.
Thompson, 390 U.S. 727 (1968); “Reckless disregard, it
is true, cannot be fully encompassed in one infallible
definition. Inevitably, its outer limits will be marked
out through case by case adjudication.” 390 U.S. at 730.
[emphasis added] This case is a necessary marker for
such boundaries. Indeed, the United States Supreme
Court pre-saged this very situation in Dun &
Bradstreet v. Greenhouse Builders, 472 U.S. 749 (1985)
where it explained how the falsehood presented here
serves to impugn public officials in a false way that
ends up actually contaminating the purpose of the First
Amendment:
“Criticism and assessment of the performance of
public officials and government in general are
not subject to penalties imposed by law. But
these First Amendment values are not at all
served by circulating false statements of fact
about public officials. On the contrary, erroneous
information frustrates these values. They are
even more disserved when the statements
falsely impugn the honesty of those men and

App. 128
women and hence lessens the confidence in
government.” 472 U.S. at 767.
This is precisely what Discovery aimed to do by
creating false testimony to create a malevolence in this
Plaintiff and his NASA government colleagues to make
the audience perceive things not true and lessen
confidence in the space program.
Discovery contends that what it terms “artistic
editing” of sworn testimony is beyond those limits of
reckless disregard. The integrity of the oath and
recorded sworn testimony is in severe jeopardy if
writers or film makers can make up false testimony
and put it in the mouth of a witness who is being used
to create a dramatic, entertaining story on an
important story which is represented as true but is, in
fact, false. We are unaware of any case that has
directly confronted this issue of actual fabrication of
false testimony and this case cries out for a marking of
boundaries for reckless disregard. It takes little
imagination to envision what can be set loose if such
fabrication is embraced in a written opinion.
Entertainment which is not based on simple creative
fiction but seeks to fictionalize real, historic events by
making up sworn testimony to support a plan of
showing a pre-conceived notion of dramatizing a
malevolent intent of an action in that event cannot be
endorsed as protected speech. “Freedom of speech, has
its limits; it does not embrace certain categories of
speech, including defamation, incitement, obscenity
and pornography produced with real children.”
Ashcroft v. Free Speech Coalition, 535 U.S. 234, 245-46
(2002) [ emphasis added]

App. 129
II. APPELLANT HAS NOT FORFEITED HIS
ARGUMENT THAT FALSIFYING ACTUAL
SWORN TESTIMONY IN A FILM FALLS
OUTSIDE THE FIRST AMENDMENT.
Discovery has argued in its brief that Lovingood did
not present his argument that the media cannot edit
sworn testimony and that it was raised for the first
time in this appeal. (Appellee’s brief at p. 44) This
argument is without merit. In Lovingood’s Motion to
Alter, Amend or Vacate the following was set forth:
“This Court has essentially held that showing
false and perjured testimony is acceptable to put
in the mouth of a real person if it was done for
dramatic affect in a docudrama. Is that really
what the law allows? We think not. Neither
public officials nor private persons should be put
to such risk just to satisfy a desire for “dramatic
effect.” As the Bose court stated above [Bose
Corp. v. Consumers Union of U.S., Inc., 466 U.S.
485, 503 (1984)] such a false, made up portrayal
of sworn testimony may be dramatic but that
desired effect for entertainment is outweighed
by the moral insistence of truth. There is
sufficient evidence in this case to support a
reasonable jury to infer actual malice by
purposeful avoidance of the truth by clear and
convincing evidence.” (Doc. 76 at p. 11-12)
Then, in a supplemental filing, Lovingood stated:
“His day to day job is not under oath but can
be under the opinionated scrutiny of the
media or the public at large in an open

App. 130
ended, constitutionally protected expression.
The oath and his sworn testimony is elevated
outside the performance of his duties of
employment/office. He is now sworn to an
oath to tell the truth on any matters
examined. This makes him an ordinary
citizen in this forum regardless of his status
as an official or a public figure. He is now
simply a WITNESS. No witness can be
exposed to having fabricated/fake testimony
that did not take place put in his mouth
when it did not occur in the actual transcript.
There are no levels of status that alter that
indisputable duty to any citizen testifying
under oath. “(Doc. 77 at p. 4)
There is no merit to contending this argument was
not raised in the trial court. It is clear this argument
was raised in the trial court.
III.

DISCOVERY WAS NOT A PASSIVE
PARTICIPANT IN THE PUBLICATION
OF FALSE AND DEFAMATORY SWORN
TESTIMONY OF APPELLANT AND
THERE IS SUBSTANTIAL EVIDENCE
OF RECKLESS DISREGARD AND
WLLFUL BLINDESS.

Discovery’s brief in this matter focuses on the
argument that there is no direct proof that it had a
“high degree of awareness of probable falsity” citing
St. Amant v. Thompson, 390 U.S. 727, 731 (1968)
(Appellee’ s brief at p. 35) Discovery contends it had no
knowledge of the differences in what was depicted in
the film and the true facts. There is a conspicuous

App. 131
reluctance to acknowledge that the test for actual
malice has two prongs: “... with knowledge that it was
false or reckless disregard of whether it was false or
not. “New York, Times Co. v. Sullivan, 376 U.S. 254,
279-80 (1967) [emphasis added]; St. Amant v.
Thompson, 390 U.S. 727, 730 (1968)
Discovery and the BBC were co-producers in this
joint venture. Discovery warranted that it would
exercise “due diligence in its enquiries” to assure “none
of the versions will defame any individual or entity.”
(Appellee’s Appendix Vol. 8, Tab 60(9) at p. 27) BBC
and Discovery further agreed to indemnify each other
regarding any third-party claims. (ibid at p. 28) BBC
warrants that the film will be produced “in keeping
with generally accepted standards for first class
documentary film makers, be true and accurate.” (ibid
at p. 25) (Note: not docudrama but the higher standard
for a factual documentary!)
Discovery takes the position that it passively relied
upon BBC for accuracy and truth because BBC is the
“gold standard” for such accuracy. (Appellee’s brief at
p. 22) Yet, we know that Discovery assumed duties to
consult with BBC and exercise due diligence to assure
nothing defamatory under American law would be used
or authorized for publication in the United States as
described above. Discovery’s Executive Producer
testified that he had the obligation “to double check –
you know, to just double check that they (BBC) are
doing their job and look for hints that they might not
be.” (Appellee’s Appendix Vol. 7 Tab 60(7) p. 167)
“I have a lot of obligations to make sure that it is
true and the way I do that is to encourage, double

App. 132
check, remind them, look for hints that they might not
be doing their job and that is what I did.” (ibid at
p. 168) Discovery sent many comments to BBC
including notes by the Discovery General Manager,
Debbie Myers, talking about “drama treatment.” (Doc
64-6 attached to Doc 65 brief) The Executive Producer
of Discovery also sent emails to BBC about reviewing
such treatment and commenting on changes. (ibid at
p. 75) One of those emails discussed the plan for how
the producers wanted the film to crescendo:
“We will witness unexplained behavior by
characters, initially anonymous but when we
later identify as Mulloy, et al. and we will
overhear the strategic advice of anonymous
attorneys, building a feeling of malevolent intent
that we gradually reveal is aimed at suppression
of the truth at all costs.” (Doc. 64-6 attached to
Plaintiffs S.J. brief Doc. 65) [emphasis added]
Thus, we know that the plan was to make
Lovingood and the NASA managers look like the
villains in hiding probabilities of a disaster like this. It
didn’t “reveal” suppression of the truth, it fabricated it.
This was a joint plan. This led to the mixing of the
scenes and false testimony depiction because that
departure would have more dramatic impact than the
truth. Discovery says in its brief that the questions of
probability of “uncompleted flight due to main engine
failure were understood to be “interchangeable” with
the probability of loss of vehicle and human life.
(Appellee’s brief at p. 28) In fact, Discovery’s Executive
Produced testified: “I don’t think he (Feynman) would
have considered the statements interchangeable...”

App. 133
(Appellee’s Appendix Vol 7 Tab 60(7) at p. 102) They
were not, but the calculations were mixed and falsified
to accomplish a reckless, desired effect by disregard of
the truth. This was not simply the change of a scene
from an interview at Marshall Space Flight Center to
the Commission hearing as Appellees contend. It
changed the question from 1) “main engine failure” to
any failure; 2) uncompleted flight for main engine
failure to total loss of vehicle and death of the entire
crew due to anything imaginable; 3) informal responses
to official engineer reports that never existed; and
4) fabricated false, never occurring testimony by
Lovingood based on those bold and false changes. It
didn’t take a sophisticated, engineering schooled
audience to see these changes represented as a “true
story” as a clear indictment on the truthfulness of Dr.
Lovingood. That is exactly what the producers wanted.
The irony is that rather than proving that Lovingood
and his management colleagues were “aimed at
suppression of the truth at all costs” (Doc.64-6; Ex. 6 at
p. 3 attached to Appellants S.J. Brief); it was these
producers who were aiming to suppress the actual,
testified truth at all costs for “dramatic effect.”
Ten months before this film was aired by Discovery
in the United States, the Executive Producer wrote
BBC asking to see their notes on research and
embarking on his obligation to “double check” for truth
and accuracy. The email stated, “I feel like a backseat
driver without a map.” (Appellee’s Appendix Vol. 7 Tab
60(7) at p. 110-111) When asked if he ever received
those requested notes so he could double check, he
stated “I don’t recall.” (ibid at p. 111) None were ever
produced in discovery so the clear conclusion is that he

App. 134
did not. This was not further pursued and shows a
reckless disregard of whether the depiction was false.
If BBC is the “gold standard,” why would this
Executive Producer have the admitted obligation to
“double check” then and “look for hints that they (BBC)
might not be doing their job?” (ibid at p. 167-68) The
answer is clear. Just like the shuttle needed
redundancies for safety, the research and review for
truth and accuracy needed that same approach to avoid
falsehood and defamation under American law. The
contract required that redundancy, the Executive
Producer acknowledged it but the facts show there was
a reckless disregard of whether the testimony scene
was totally false or not. This was not the simple failure
to further investigate under some objective industry
standards. It was the wholly subjective mindset of
Discovery to be willfully blind and not upset the
planned apple cart of showing Lovingood and his
management colleagues to be malevolent and ignoring
engineering calculations which, in fact, never existed
as shown above in in this brief. Apples were not just
mixed with oranges; apples were turned into oranges
by film sorcerers falsifying questions and answers that
were “not interchangeable” but explicitly falsified for
the malevolent image desired. More than 5 million
viewers saw this movie showing Lovingood testifying
falsely on a critical question making him look
malevolent and suppressing engineer reports that
never existed.
The Executive Producer testified that he “skimmed”
the Feynman book. (ibid at p. 69) If he were totally
relying on BBC there would be no need to do that but
he knew he had the obligation set forth above for the

App. 135
U.S. version under American law. Discovery was not a
passive co-producer but obviously decided to sit back
and willfully enjoy being a “backseat driver without a
map.” Consider this testimony from the Executive
Producer:
“Q.

Discovery, through you and others,
collaborated with BBC in the finalization
of the product known as “The Challenger
Disaster,” true?

A.

Yes.

Q.

You had some role to play in how scenes
were depicted, the length of the film, fonts
used on title cards, things of that nature,
right?

A.

Yes.” (ibid at p. 66) [ emphasis added]
****

“Q.

You at Discovery not only had the power
to make suggestions about deletions or
changes to scenes, you had the obligation
under the contract if something were false
to make that observation, didn’t you?

A.

I - - I cannot honestly speak to the
contract but I would take that obligation
seriously, nonetheless.” (ibid at p. 77)

In fact, Discovery made BBC delete or “lose” any
hints of sabotage from the U.S. version of the film.
(Doc. 64-7 (Exhibit 7) p. 3) It was done as requested.
Indeed, Discovery even advised the BBC “Be very
careful not to fictionalize an accusation against NASA.”

App. 136
(Doc. 64-5 filed with Plaintiffs brief Doc. 65) Yet the
coordinated plan as set out above was just that –
“building a feeling of malevolent intent that we
gradually reveal is aimed at suppression of the truth at
all costs.” (Doc. 64-6 at p. 3) That goal was met by
showing Lovingood as the poster boy of this malevolent
intent by creating false testimony given by him about
calculations of risks that were never made by NASA
and contrasting it with field engineer calculations that
never happened. Their informal answers to
uncompleted missions due to main engine failure was
made to look like formal reports on total failures and
death by any hypothetical failure of any component.
The desired effect was indeed dramatic by showing
Lovingood and his management colleagues as
suppressing these risks from the astronauts who died
in this tragedy. Remember, Sally Ride is shown at this
false scene having false testimony that was never given
and saying: “One in two hundred. Wow. That’s not
what the astronauts were aware of. That’s a potential
disaster every 3 ½ years.” (R.-7(2)-23; R-60(26)-1:20:45)
This was the climax of the film, and if the court
watches the movie it will see they accomplished their
plan. Wouldn’t Discovery at the very least look at any
scenes specifically created “for dramatic purpose” to
assure no defamation by falsehood?
Discovery and BBC were joint tort feasors in this
matter. Johnson Publishing Co. v. Davis, 271 Ala. 474,
124 So.2d 441, 445 (1960) “Joint tort feasors are those
who act together in committing a wrong or where acts
independent of each other unite in causing a single
injury.” Ex Parte Barnett, 978 So.2d 729, 733
(Ala. 2007) Each tort feasor may be held liable for the

App. 137
entire resulting harm. Nelson Bros. Inc. v. Busby, 513
So.2d 1015, 1017 (Ala. 1987) It matters not that BBC
is not here personally because of being dismissed for
lack of jurisdiction in Alabama. Each joint tort feasor
is liable and, as shown above, the contract provides for
indemnification of each other.
“Although failure to investigate will not alone
support a finding of actual malice see St. Amant,
390 U.S. at 731, 733, 885 S. Ct. at 1325, 1326,
the purposeful avoidance of the truth is a
different category.” Harte-Hanks
Communications, Inc. v. Connaughton, 491 U.S.
657, 692 (1989) [emphasis added]
This falsification and creation of sworn testimony is
not simply failure to investigate. It was recklessly done
to avoid the truth because these defendants did not
care what the true facts were. They put false testimony
in the mouth of Lovingood to purposefully reveal the
effect they planned – to show a malevolent intent to
suppress calculations of risk that sounded terrible but
never happened. This is not protected speech necessary
for robust debate. It is the deliberate, reckless
disregard of actual recorded testimony falsified to
create a nefarious effect and Lovingood was the vehicle.
Discovery cites the case of Street v. National Broad
Co., 645 F.2d 1227 (6th Cir. 1981) for support of
alteration of sworn testimony. (Appellee’s brief at p. 47)
In fact, Street, set forth the order of Judge Horton in its
entirety where he stated about the Plaintiff and her
testimony in the Scottsboro incident: “...proof tends
strongly to show she knowingly testified falsely in
many material aspects of the case.” 645 F.2d at 1244.

App. 138
That case did not involve any alteration or editing of
sworn testimony. Instead, the Court observed “the
derogatory portrayal of Price in the movie is based in
all material respects on the findings of Judge Horton at
the trial.” 645 F.2d at 1237.
CONCLUSION
For the foregoing reasons and those set forth in
Appellant’s initial brief and the necessity of protecting
this Appellant’s reputation and the integrity of sworn
testimony in our legal system, Appellant urges this
Court to reverse the Order of the trial court granting
summary judgment and remand this case for trial by
jury on the merits. The record shows sufficient
evidence and reasonable inferences for a jury to find
actual malice under the law.
s/_______________________
Stephen D. Heninger
s/_______________________
STEPHEN D. HENINGER
[Certificates of Compliance and Service Omitted from
this Appendix]

